<html>
<title> - EQUITABLE COMPENSATION ACT</title>
<body><pre>[Senate Hearing 107-268]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 107-268

                       EQUITABLE COMPENSATION ACT

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   ON

 FEDERAL OBLIGATION TO EQUITABLE COMPENSATION TO THE FORT BERTHOLD AND 
                       STANDING ROCK RESERVATIONS

                               ----------                              

                            AUGUST 30, 2001
                              NEW TOWN, ND

                       EQUITABLE COMPENSATION ACT


For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                                                        S. Hrg. 107-268

                       EQUITABLE COMPENSATION ACT

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   ON

 FEDERAL OBLIGATION TO EQUITABLE COMPENSATION TO THE FORT BERTHOLD AND 
                       STANDING ROCK RESERVATIONS

                               __________

                            AUGUST 30, 2001
                              NEW TOWN, ND

                                _______

                  U.S. GOVERNMENT PRINTING OFFICE
77-528                     WASHINGTON : 2001



                      COMMITTEE ON INDIAN AFFAIRS

                   DANIEL K. INOUYE, Hawaii, Chairman

            BEN NIGHTHORSE CAMPBELL, Colorado, Vice Chairman

FRANK MURKOWSKI, Alaska              KENT CONRAD, North Dakota
JOHN McCAIN, Arizona,                HARRY REID, Nevada
PETE V. DOMENICI, New Mexico         DANIEL K. AKAKA, Hawaii
CRAIG THOMAS, Wyoming                PAUL WELLSTONE, Minnesota
ORRIN G. HATCH, Utah                 BYRON L. DORGAN, North Dakota
JAMES M. INHOFE, Oklahoma            TIM JOHNSON, South Dakota
                                     MARIA CANTWELL, Washington

        Patricia M. Zell, Majority Staff Director/Chief Counsel

         Paul Moorehead, Minority Staff Director/Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
Statements:
    Baker, Biron.................................................    30
    Baker, Frederick, enrolled member, Three Affiliated Tribes...    26
    Burr, Joyce, educational consultant, Three Affiliated Tribes.    32
    Conrad, Hon. Kent, U.S. Senator from North Dakota............     2
    Danks, John H. member, Mandan, Hidatsa, Arikara Elder 
      Organization...............................................    24
    Fredericks, John, member, Mandan, Hidatsa, Arikara Tribe.....    21
    Hall, Tex, chairman, Mandan, Hidatsa, and Arikara Nation 
      (with attachments).........................................  2, 5
    Hudson, Marilyn, member, Three Affiliated Tribes.............    31
    Jones, Cora, director, Great Plains Region, BIA..............    15
    Mandan, Tony, member, Three Affiliated Tribes................ 1, 35

                                Appendix

Prepared statements:
    Baker, Frederick.............................................    39
    Burr, Joyce..................................................   159
    Danks, John H. (with attachments)............................   118
    Fredericks, John ``Buzz'' elder (with attachment)............   114
    Hall, Tex (with attachments).................................    47
    Hudson, Marilyn..............................................   159
    Jones, Cora..................................................    39
    Mandan, Tony.................................................    41
    Old Dog Cross, Phyllis.......................................    44
    Packineau, Elise.............................................    42
    Walker, Tillie, enrolled member, Mandan Tribe (with 
      attachments)...............................................   165
    Young Bird, Bernadine, administrator of the Three Affiliated 
      Tribes Education Department................................    43
Additional material submitted for the record:
    Letters......................................................   169
    Final Report of the Garrison Unit, May 23, 1986..............   184
    Public Voucher For Purchases and Services other than 
      Personal, (with attachments)...............................   283
    Tribal Resolutions Approving Expenditures from Economic 
      Recovery Fund, Accompanied by Approval of Fund Transfer 
      Forms and Letters of Approval from BIA, 1995-2001 For the 
      Three Affiliated Tribes....................................   405

 
                       EQUITABLE COMPENSATION ACT

                              ----------                              


                        FRIDAY, AUGUST 30, 2001


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                      New Town, ND.
    The committee met, pursuant to notice, at 9:30 a.m. at the 
Four Bears Casino Events Center, New Town, ND, Hon. Kent Conrad 
(acting chairman of the committee) presiding.
    Present: Senator Conrad.
    Mr. Red Fox. We'd like to open the ceremony by having VFW 
Post 9061, American Legion Posts 253 and 271 posting the 
colors.
    [Posting of colors.]
    Mr. Red Fox. Thank you. Now I'd like to ask one of our 
respected tribal elders to say a prayer. Tony Mandan.

             STATEMENT OF TONY MANDAN, TRIBAL ELDER

    Mr. Mandan. Thank you. I'd like to welcome Senator Conrad 
today. We're going to be talking about our sacred land that we 
had lost along the Missouri River, and so that our people--they 
want to sell that land--they were forced to sell it. So our 
Senator here represents all of us. He has taken an oath to 
represent all of us, and it's very important. What you say you 
must carry out because you might--that's--we understand that we 
have to through the bible.
    So at this time I would like to mention that a lot of our 
warriors that were protecting our lands are there underneath 
the water. Some of them were never reclaimed, and others, like 
my grandfather, lost his life up there on the Canadian border 
protecting our territory, and he never was reclaimed.
    So I'd like to say these before I say my prayer, and I 
thank you for the attention, and I want to say that in my 
native tongue so that--I don't know how many of you speak my 
native tongue anymore, but I'm going to say it in my native 
tongue.
    [Prayer was said.]
    Mr. Red Fox. Thank you, Mr. Mandan. Moving along very 
quickly here, we realize we're pressed for time, and we can 
never--we must always take time I think to appreciate our 
country and our God.
    At this time we'd like to introduce the councilmen and the 
segments they represent, not only the new segments, but we'll 
talk about Little Shell, Lucky Mound, Independence, Elbowoods, 
and any other ones that I may have forgotten. I'll start up 
front here with Mark Fox from the Parshall area right now. 
Mark, say hello.
    Mr. Fox. Hello, hello.
    Mr. Red Fox. Thank you. Marcus Wells, Jr., from the Four 
Bears area. Randy Phelan from the Mandaree area. On the way up 
front here is Austin Gillette from the White Shield area and 
Malcolm Wolf from the New Town area, and we'll save for last 
Mr. Hall because Mr. Hall will have a few comments and then 
will introduce the Senator to us. Ladies and gentlemen, 
Chairman Hall.

 STATEMENT OF TEX HALL, CHAIRMAN, MANDAN, HIDATSA AND ARIKARA 
                             NATION

    Mr. Hall. I hope everybody can hear me all right. Good 
morning, Senator Conrad, and the staff, Lisa Linnell, good 
morning. Good morning, everybody, and welcome to the hearing 
for the Equitable Compensation Act, and I just want to thank 
all the staff for putting together our entertainment center, 
our facility today.
    The Elders Organization has put together some of their 
pictures, and they have a table set up over there by Phyllis 
Cross, and we also--next to it we have the Nishu--the original 
community before the flood. So you'll see that, and then going 
over there you'll see a power-point that's been prepared by the 
businesses that are here, and, of course, you'll see the 1948 
picture that's been shown throughout history about the signing 
by the council in 1948 of our bottom lands and the traumatic 
and emotional picture that we still honor and respect today, 
and thank all the veterans and the drum group and thank Tony 
Mandan for that very solemn prayer for opening today.
    With that I'd like to introduce and turn it over to our 
Senator, Senator Kent Conrad.

 STATEMENT OF HON. KENT CONRAD, U.S. SENATOR FROM NORTH DAKOTA

    Senator Conrad. Thank you very much, Chairman Hall, and 
thank all of you for being here. This is an honor for me to be 
here chairing this hearing. This is an official hearing before 
the Senate Committee on Indian Affairs authorized specifically 
by the chairman, Senator Inouye, of Hawaii.
    I am now the second ranking member of the Senate Committee 
on Indian Affairs, and so this is a special privilege for me to 
have the chance to be here today to talk about legislation that 
is critically important to this tribe and critically important 
to me. I am especially pleased to be here to talk about the 
Three Affiliated Tribes and Standing Rock Sioux Tribe Equitable 
Compensation Act, known more familiarly as the JTAC 
Legislation.
    As the principal sponsor of that legislation, I have a 
special interest in monitoring its progress. The Equitable 
Compensation Act attempts to right the wrong that was 
perpetrated upon the people of the Fort Berthold and Standing 
Rock Reservations when the Federal Government flooded these 
reservations during construction of the two mainstem dams on 
the upper Missouri River.
    When the Garrison Dam was constructed, thousands of acres 
of tribal land were lost as were bridges, homes, hospitals and 
roads. When Fort Berthold's land was taken in 1949, the Three 
Affiliated Tribes lost one-quarter of the reservation's land 
base, and much of that land was the very best land that the 
tribe had. There were 325 families--80 percent of the tribal 
membership--that were forcibly relocated; 94 percent of the 
agricultural lands of these farmers and ranchers were lost. The 
tribal headquarters at Elbowoods was completely flooded.
    The 1992 Equitable Compensation Act was the result of 
recommendations made by two reports. The first was entitled 
``The Final Report of the Garrison Unit Joint Tribal Advisory 
Committee.'' That's where JTAC comes from, Joint Tribal 
Advisory Committee, a special committee created by the former 
Secretary of the Interior, Mr. Hodell.
    The 1986 JTAC report acknowledged the Federal Government's 
obligation to compensate the tribes, a legal obligation to 
compensate the tribes. It came up with a range of money owed to 
the tribe of $178 million to $412 million.
    The second report, which was conducted by the general 
accounting office, analyzed the JTAC report and concluded that 
the methodology was flawed. They concluded that the tribe was 
owed anywhere from $52 million to $149 million.
    We were able to secure in the legislation that I introduced 
the high end of the general accounting office report that 
analyzed what was owed the Tribe. What we were able to 
successfully get was the $149 million. I am especially proud of 
the work we did in passing the JTAC bill. It took me 4 years 
and literally hundreds of hours of negotiating and the 
persuasion of my colleagues in the Senate and the House of 
Representatives to secure this victory.
    When I started the effort, I was told there was no way that 
we could possibly succeed. Many of you who are here in this 
room remember that. We were at meetings in which we were told 
over and over there is no way we will ever get this kind of 
money, and that's because those were the days of massive 
Federal budget deficits, and all new spending was routinely 
rejected by the appropriations committee.
    It was only when I hit upon the idea of funding the 
legislation outside of the 5-year Federal budget window and in 
a way that avoided the appropriations committee that we had any 
hope for success.
    As you know, the bill creating the $149-million trust fund 
provided that the interest on the principal would accrue for 5 
years before being available for expenditure. It was that 
device that allowed us to pass the legislation and secure the 
funds, and it has served as the model for all succeeding 
settlement funds that occurred since, but I might say to you 
all of the new settlement funds now take 10 years before any of 
the money is available because the Federal budget window is no 
longer 5 years, it's 10 years.
    When we achieved that success, we all knew what was 
intended. The compensation legislation was designed to allow 
the Three Affiliated Tribes the opportunity to rebuild and 
regain financial independence. It provides the resources for 
the general health and welfare of the tribe and its members.
    While it is not everything that we wanted, it has the 
potential to make a big difference in the future of this tribe 
and its people. The interest on the money in the Fort Berthold 
Equitable Compensation Fund became available for use on October 
1, 1997, nearly 4 years ago.
    I believe now is a good time to look and to assess how 
those funds are being used. Also at today's hearings we'll hear 
from a panel about the infrastructure needs of the tribe.
    The legislative history of this bill also acknowledges that 
the Three Affiliated Tribes are entitled to replacement of 
infrastructure lost by the creation of the Garrison Dam and 
Lake Sakakawea, including health care facilities, a bridge, and 
school facilities.
    You will remember that just last year we were successful in 
getting the bridge funded at a level of $35 million. It was one 
of only two bridges that was approved outside of the Federal 
Highway Program last year. Only two bridges in the entire 
country were funded, and I'm especially proud that our bridge 
here was one of the two.
    [Applause.]
    Senator Conrad. That, too, was a remarkable accomplishment, 
a testimony to the teamwork of Senator Dorgan, Congressman 
Pomeroy, and my office working with your tribal leadership. I 
think your tribal leadership can tell you it was the Perils of 
Pauline getting that $35 million approved outside of the normal 
highway bill. Typically no bridges, none, are approved outside 
of the normal legislation of the Federal Highway bill.
    And last year we were also able to get funded the Dakota 
Water Resources Act, this after nearly 2 decades of work. It is 
perhaps my proudest accomplishment as a U.S. Senator 
representing North Dakota. That legislation provides $600 
millions to North Dakota, including $200 million of Indian MRI 
water projects.
    Those examples of the bridge funding and the funding for 
water projects are examples of how we can keep the promise that 
was made to this reservation and this State by normal 
appropriations bills in addition to the funding that we secured 
through the JTAC Legislation.
    I want to say today that I thank Chairman Tex Hall, the 
tribal business council, and the staff of the tribe for helping 
to organize this hearing. I would also like to thank Cora 
Jones, the Great Plains director of the Bureau of Indian 
Affairs, for testifying here today.
    The U.S. Department of the Interior is charged with 
approving the plans for the use of these funds. So I believe 
the presence of Ms. Jones and her testimony today will be 
helpful in giving a complete picture of this process.
    Finally, I would like to remind everyone here that this is 
an official hearing of the U.S. Senate, and the rules of the 
U.S. Senate will apply. Although we only have a limited number 
of witnesses, additional testimony can be submitted for the 
hearing record up to 14 days following this hearing. Those who 
would like to submit testimony for the record can do so by 
sending it to my office no later than September 13, 2001. So 
let me just repeat that. The record will remain open, the 
official record, until September 13, 2001.
    I again want to thank the tribal leadership, Chairman Tex 
Hall, the council, all of its members. I've worked closely with 
them, not only on the bridge project but Dakota Water Resources 
Act over many years and certainly the previous tribal 
leadership on the JTAC Legislation.
    I think back at how people told us it would never happen. I 
remember going to the first meeting of the Senate Energy 
Committee that had to approve this legislation and being told 
by the chairman this can never pass because of the budget 
deficits, and yet we found a way, a novel way, a way no one had 
ever figured out before and has allowed us to succeed, and 
again last year when we got the bridge funded, one of only two 
in the country, and again we were told we had little chance, 
and Dakota Water Resources Act, when again we were told after 
20 years of effort you can't possibly hope to succeed.
    I think we've proven the skeptics wrong, and it's happened 
because we worked together. There is a lesson in this for all 
of us because working together our efforts are always going to 
be more successful than if we work separately and apart. That 
should be one of the lessons we learn from this hearing today.
    Again, I want to thank Chairman Hall, the members of the 
council and the elders who have given us such good advice and 
in many cases given me such good advice that have helped us to 
be successful, and I suspect some of those prayers that we said 
over the many meetings that we held also may have been a secret 
to our success.
    With that, I want to call on Chairman Hall for his 
testimony and to again thank all of you who are in the audience 
for being here and for listening patiently. Chairman Hall.

 STATEMENT OF TEX HALL, CHAIRMAN, MANDAN, HIDATSA AND ARIKARA 
                             NATION

    Mr. Hall. Thank you, Senator Conrad. Dosha. Hello and good 
morning to Senator Conrad and also to Senator Inouye. We thank 
the chairman of the committee and yourself for allowing us this 
very important--as I mentioned earlier, a sacred day for the 
members of the Mandan, Hidatsa and Arikara Nation, and on 
behalf of the tribal business council that we have here I'm 
very happy to present testimony on the 1992 Equitable 
Compensation Act.
    Today marks an historic occasion as the U.S. Senate holds 
an official hearing on the Fort Berthold Indian Reservation 
just 3 weeks in advance of the 150th anniversary of the signing 
of the 1851 Fort Laramie Treaty and almost 200 years after the 
commencement of the Lewis and Clark expedition, whose 
bicentennial will be celebrated starting in 2003.
    This hearing also marks another milestone not nearly so 
historic but certainly one of the most devastating events that 
happened to our people, the completion of the Garrison Dam 
across the Missouri River and the flooding of what was left of 
our ancestral homelands along the river, the flooding of 
156,000 acres that represented the largest part, and as you 
mentioned, Senator, 80 percent of our members lived there on 
the bottom lands.
    This damage, as many of our elders will testify, can never 
be fully compensated by money and will never be fully healed, 
but thanks to your efforts, Senator, we are beginning to repair 
some of those social and economic damages caused by that flood.
    To name a few: The 1992 Equitable Compensation Act and the 
establishment of a $149.2-million fund. This was unprecedented. 
Through your budget strategies and through your skills you were 
able to achieve something that all of your comrades and your 
fellow senators said that could not be done. It was through 
this creative legislation that many other of your colleagues 
and senators have used in similar bills to accomplish the 
establishment of the $149.2-million fund, and so we owe singly 
to you perhaps the greatest attributes to successfully passing 
of this very historic legislation that is now beginning to 
repair and heal the members of our nation.
    We also want to recognize you, Senator, for as you 
mentioned, the 2000--November 2000, the $35 million for the 
Four Bears Bridge, and again your persistent and creative 
budgeting effort to achieve something that again your comrades 
and your fellow senators said could not happen, and it did.
    And then, finally, also the November 2000 passage of the 
$70-million Dakota Water Resources Act authorizing this for our 
water distribution, and again your fellow Senators and comrades 
said that this could not be done, and again through your 
efforts and your budget strategies you were able to accomplish 
this, and maybe that's why you're a U.S. Budget Committee 
chairman today, and the United States has entrusted that to 
you, and we're fortunate to have you in North Dakota as our 
Senator to help accomplish these three very historic and very 
large multi-million-dollar pieces of legislation, and, again, 
thank you for those efforts.
    [Applause.]
    Mr. Hall. It would also be appropriate to also thank the 
late Senator Quentin Burdick. As you recognized, our elders 
today were also sitting on this council and worked with the 
late Senator for his tireless efforts in this regard. Without 
the efforts of yourself, Senator Burdick, Senator Dorgan, and 
Congressman Pomeroy, we would not have the Equitable 
Compensation Act, and there would have been no followup to the 
efforts of the JTAC or the Joint Tribal Advisory Committee to 
the Garrison Diversion Unit.
    We also to thank you for your efforts regarding return--
beginning to return to us some of the lands along the lake 
shore, the so-called excess lands, and your willingness to want 
to work with us on this very important issue.
    And, finally, we want to thank you for your efforts 
regarding the MRI. It's through the million dollars of 
appropriations through our MRI that we're beginning to see 
quality treated water in the communities of White Shield, Twin 
Buttes, Mandaree, and Four Bears for these new water treatment 
plants, and we know that getting enough funds for our water 
project needs is a tough job, given how the budget surpluses 
seem to slip away, but we also know that Senator Conrad will do 
his utmost to secure the funds needed to really begin to 
fulfill the promise of a good water system made to us more than 
two generations ago.
    And we know that these efforts are continuing, and we know 
that our Congressional delegation will not stop working for us 
as we make the efforts needed to supply our remaining needs.
    This hearing is really about all those things that Congress 
has done and the things that have not yet quite been 
accomplished. It is about, number one, how the compensation 
provided to the people of our nation for the flooding of our 
lands has been used by the MHA nation; and, number two, whether 
or not this compensation is really quite adequate to meet, as 
you mentioned, the need to complete the infrastructure 
development because of the flooding of Lake Sakakawea.
    What I want to talk about--I want to emphasize several 
matters today, Senator Conrad. These matters are partly covered 
by the written statement and accompanying resolutions that we 
have submitted for the record that have been approved by our 
Tribal Business Council that authorize expenditures from the 
permanent Economic Recovery Fund created by the tribe--the 
Three Affiliated Tribes, the Standing Rock Sioux Tribe 
Equitable Compensation Act.
    We will be submitting a corrected written statement for the 
record. Further, we will be submitting for the record a final 
corrected statement that incorporates my oral statements here 
today.
    Funds used for purposes allowed in the act. First of all, I 
want to emphasize that every dollar of income that we've 
received from the Economic Recovery Fund has been used for the 
purposes and for programs authorized by the 1992 Three 
Affiliated Tribes and Standing Rock Sioux Tribe Equitable 
Compensation Act.
    Not only have we spent the funds for purposes allowed by 
the act, we have also gone much, much further. Senator, as you 
will hear over and over again today, a lot of what we have done 
with the income from the Economic Recovery Fund is to 
supplement the Federal Government's fundamental trust and 
treaty obligations to our people. This is not right, but we are 
forced to use some of the funds, and our efforts to achieve 
economic self-sufficiency, which is really the purpose of the 
Economic Recovery Fund, are substantially delayed.
    The report accompanied by the Equitable Compensation Act 
issued in 1992 states on page 191:

    Section 3505 of the act makes clear that the payments made 
pursuant to this Act shall not result in the denial or 
reduction of any such services to the tribes. For example, the 
Three Affiliated Tribes have budget authority available for 
water systems development, and given the health-threatening 
quality of domestic water on the reservation, the committee is 
hopeful that additional appropriations for upgrading these 
water systems will be made available in future years.

    But, Senator, as I will describe in greater detail shortly, 
we have ended up using some of our Economic Recovery Fund 
income for exactly these purposes over and over and over again.
    The funds we have received to date do not replace lost 
infrastructure. We still need additional dollars to replace the 
lost infrastructure.
    Second, it is important to recognize that the Equitable 
Compensation Act only provided a part what was promised to us 
by the United States when the Garrison Dam was built.
    What we were promised when the dam was built. When the dam 
was built, the Army Corps of Engineers promised an awful lot. 
Some of our elders will testify shortly as to those promises. 
The Army Corps promised infrastructure replacement, including a 
new hospital, new schools, adequate secondary and access roads, 
new community centers, a new bridge, a new rural water delivery 
system for all of our members on the Reservation, and access to 
the electricity generated by the new dam, among other things.
    Well, Senator, of all these things the only things that are 
only partly completed are the new community buildings in some 
of our communities, but New Town, our largest community, does 
not have one yet, which is why in part we are meeting in our 
new multi-purpose facility at the Casino here today. Most of 
these community centers were built within the past five years, 
nearly 45 years after the promises were made.
    We have some water treatment plants, as I mentioned 
previously, that serve the people living within our reservation 
communities but which do not yet serve our rural outlying 
citizens. Most of these were upgraded or fully constructed in 
the past 10 years, 40 to 45 years after the promises were made.
    We do not yet have adequate healthcare facilities, and we 
do not begin to have adequate educational resources for our 
children and for our adults.
    Our secondary and access roads are still woefully 
inadequate, and our rural water system is still only on the 
drawing board.
    Of all the things on the list as recommended by the JTAC 
original committee--and we have some of our--we have members of 
our 1986--I don't know if we have any of the membership here 
today. Do we have any members--I know like Phyllis Cross was on 
the 1986 original JTAC Committee. Is she in audience? Are there 
any other members of the 1986 original JTAC Committee? I want 
to acknowledge them, and I also want to acknowledge--oh, and 
John Charger? Is John Charger here? There is one of the 
members, as well. John, if you would please stand up and be 
recognized from the 1986 original JTAC Committee.
    [Applause.]
    Mr. Hall. I'd also like to take the time, Senator Conrad, 
to recognize the 1996 JTAC Committee. Would you please rise? 
Tony Walker I see here, Phyllis Cross. All of you, please stand 
up. I want to recognize the 1996 JTAC Committee. They did a 
very important--a good 2\1/2\ years of research and 
documentation of the needs, but of all the things that the JTAC 
Committee completed, the one thing we do not have right now 
is--we hope that we have is adequate funds for the new bridge, 
and we thank the efforts of you, Senator Conrad, and the entire 
congressional delegation, but the number one priority that they 
have identified is healthcare, and I will cover that a little 
bit later on.
    First of all, let's look at how the funds we have received 
to date have been spent since the act was passed in 1997. Under 
the act, the funds can be used for education, social welfare, 
economic development, and other government programs.
    This Equitable Compensation Act initially began in 1949 as 
appropriated and authorized by Congress in the approximate 
amount of $12.5 million dollars. Almost 50 years later the 
tribe received the first installment of interest on October 1, 
1997, from the permanent fund of $149.2 million.
    As we have used these funds, over 100 new jobs have been 
created. Many of our young people have gone on to college and 
graduate school, and we have supplemented many of the Federal 
programs. I'd like to take just a few seconds to recognize some 
of the JTAC educational dollars, Senator Conrad. I'd like to 
recognize the following individuals who will receive their 
Master's degree from use of the JTAC funds: Spencer Wilkinson, 
Jr., cogeneral manager of the Four Bears Casino; Rusty Mason, 
cogeneral manager of Four Bears Casino; Richard Beard, if you'd 
please stand, Richard; Patti Jo Thomas; and Todd Hall, if you'd 
also stand. These are recent Master's degree graduates.
    We'd also like to recognize these following individuals for 
currently taking their Master's degree: Viola Wells; Marcus 
Wells, Jr., if you'd please rise; Rose Crow Flies High; Roger 
Baker; Orian Baker; Iris and Alfred Obiss; and Mike Young Bird.
    The following individuals, if you'd please rise, are 
currently participating in the Bachelor's degree program at the 
University of Mary: Clover Little Soldier, Judy Elseth, Terry 
Young Bird, Lori Alberts, Stacey Driver, Carmen Fox, Margaret 
Pretends Eagle, Claudia Mason, and Kay Wilkinson.
    As you can see, Senator, these are the product of the 
educational scholarship programs, and the Bachelor's degree 
programs--the Bureau of Indian Affairs currently allocates 
about $1,900, and the average tuition costs are close to 
$5,000. So there's a huge unmet need, and the JTAC dollars are 
used to supplement that unmet need.
    [Applause.]
    Mr. Hall. And, Senator Conrad, we have also set up the uses 
of the Economic Recovery Fund to--on economic development and 
tried to match dollar for dollar the expenditures made for 
economic development and social welfare. These two purposes go 
hand in hand. Social welfare dollars helps heal the wounds of 
the flood, and economic development dollars helps secure our 
future.
    We've also established a general plan for the expenditure 
of the funds, and each year as we begin our budget cycle, we 
place funds into the categories listed in our overall general 
spending plan so that we can fulfill the purposes of the 
Equitable Compensation Act.
    Let's look at some of those actual uses. Elder housing. 
Uses of the funds have included construction costs for 12 homes 
for the most needy elders, and these elders are still living in 
their homes that were the original 1948 before the flood that 
were moved from the original home sites, and this is 
approximately 550,000.
    The use of the funds have also created an elder 
organization. For the past 2 years they've been diligently 
working on organizing themselves and creating a budget of $2 
million appropriated from the JTAC funds for the past 2 years 
to look at an overall strategy and plan for their well-being, 
and health care again is their number one priority, and they 
will testify to that a short time later.
    Mandaree Enterprises, $800,000 to expand its capabilities, 
and I might add they are a two-time SBA minority business of 
the year and are trying to secure a number of contracts.
    Twin Buttes Custom Homes. The income from the Economic 
Recovery Fund secured the bonds that built this plant and now 
employs more than 50 people, and these funds are also used to 
pay off those bonds while the company reaches maximum 
profitability.
    Road Equipment. Over $700,000 in road equipment was also 
purchased because there was never adequate access roads 
constructed after the flood. These are funds that pay for the 
costs that the Government should have paid for after the flood. 
These are funds that should be going for real economic 
development that will provide the kind of self-sufficiency we 
enjoyed before the flood.
    We've also created a management and information services 
department--as I mentioned, Richard Beard, over on the slides 
over there is showing some of our businesses--with the 
potential for a reservation-wide Internet access system that 
will help us close the gap that is known as the digital divide 
between those who have high-speed access and those who don't, 
but our system is hardly complete. We need literally more than 
$4 million to completely provide for high-speed access to all 
of our members.
    This will help our members with health care, as well as the 
Internet has many sites, including the sites--and I know you're 
very much aware of this, Senator Conrad, in your support for 
rural telemedicine and health--of the National Institute of 
Health that provide critical information on diabetes 
prevention. This information can greatly help our people avoid 
the scourge of this disease which Carl Whitman, a former 
chairman, testified about in 1992.
    This is the least we can provide for our members, who, 
after all, before the flood were a closely-knit community who 
had easy access to each other and the resources the tribe and 
the BIA could provide.
    Under health care we created a tribal health department 
that, among other things, provides approximately 500,000 
annually to supplement the meager IHS budget for our Minne Tohe 
Clinic, that provides for an administrator whose responsibility 
is, among other things, the development of a comprehensive 
health care plan for all of our members.
    We've also created a central planning office of $500,000. 
We've created this office that has greatly facilitated our 
ability to obtain grants and other sources of funding and plans 
for economic development and for the rebuilding of our nation, 
including grants for our community centers, fire suppression 
and prevention equipment, cultural sensitivity design for the 
new Four Bears Bridge, a master plan for the Four Bears 
Peninsula, westward expansion as far as 5 miles westward of the 
new bridge. This will allow comprehensive public input for the 
citizens most affected as the central planning office holds 
public meetings throughout all the communities throughout the 
Fort Berthold Indian Reservation.
    A film department was established. 200,000 has been 
allocated for a feature film and other documentaries 
illustrating the history and culture of our people. Already we 
have a facility in Parshall which will be able to mentor our 
young people for work in the film industry and in our film 
department.
    We also allocated 400,000 for the tourism department, which 
has been allocated to prepare for the Lewis and Clark 
bicentennial, secure a signature event, which Fort Berthold is 
the only reservation in the United States to have one of the 
signature events in 2006, and to develop a strategic tourism 
plan.
    We've also utilized 400,000 for our tribal education 
department, which has been allocated to allow the tribe to take 
control of its educational development and develop a new 
educational code designed to increase our achievement levels 
and preserve our language and our culture.
    We also allocated $750,000 for the tribal administration 
expansion to improve our tribal headquarters. This will allow 
better access by our members to the activities of our tribal 
government and will allow our tribal employees to enjoy the 
comforts of a modern tribal facility that will allow us to 
greatly improve all of our services to our members, including 
such services as economic development for all of our 11,000 
members.
    Under additional housing we have allocated 750,000 for the 
construction of 36 apartment units at the Four Bears community, 
supplementing the inadequate funds provided by HUD for much 
needed new housing on the reservation, which is in effect at 
least 1,000 units that we are in need of, and once again, we 
are providing additional funds to satisfy what we feel are 
government trust obligations to our people, not just because of 
the flood, but treaty and trust obligations that have been owed 
to us since the 1851 Fort Laramie Treaty.
    Under indirect costs for Federal programs we have spent 
more than 400,000 per year supplementing our indirect cost 
needs, and these are administrative costs that should be 
provided under various self-determination contracts held by the 
tribe but which are not paid to us, even though our self-
determination contracts call for these amounts to be paid 
annually. And once again, Senator Conrad, we are using the 
funds to satisfy trust obligations.
    In regards to leveraging of our JTAC funds the interest 
from the Economic Recovery Fund has also been leveraged in a 
number of ways, and I might add it's because of the Economic 
Recovery Fund that we are at AAA bond rating, which helps you, 
as you know, Senator Conrad, get the lowest possible interest 
rate.
    The first project that we leveraged our funds is this 
expansion of this multi-purpose facility you are sitting in now 
that is open to the public and a new hotel and a swimming pool 
at the Four Bears Casino and Lodge.
    The second thing we were able to do is leverage our funds 
for the building of Twin Buttes Custom Homes, which we are now 
looking--we built a new alcoholic treatment center, we built 12 
elderly units, we've secured contracts with the Standing Rock 
Sioux Tribe, also with the IHS and the BIA with contracts down 
at the Cheyenne River Sioux Tribe and are now currently working 
on a multi-million-dollar enterprise--a bond to build 300 homes 
for our reservation, and hopefully we can help tribes, such as 
the Turtle Mountain Chippewa Tribe, who are having their own 
problems as you are very much aware of. That's the capability 
of our Twin Buttes Custom Homes plan that we do have.
    And, last, we're looking at an additional casino expansion 
by leveraging our funds that we are set to approve by our 
tribal council to complete our expansion efforts, including a 
new marina and getting the peninsula ready for the signature 
event and the Lewis and Clark bicentennial.
    But, again, it's because of the JTAC funding that we're 
able to get the AAA bonding and get the lowest possible 
interest rates, thereby saving literally $1 million over the 
entire usage of the loan.
    We also created an investment fund. We will be creating an 
investment fund of up to $30 million. This fund described in my 
written testimony is also subject to an investment cap of 25 
percent so that all of the fund will not be used at once to 
secure other economic development duties of the tribe. We 
intend for this fund to be a permanent feature, the income from 
which will be available to many future generations of our 
members.
    Experience will guide us to use the income from the 
Economic Recovery Fund more efficiently and more wisely as the 
years go by, Senator.
    For us economic development is a way of achieving self-
sufficiency, to get where we were before the Garrison Dam 
flood. But economic self-sufficiency is not completed 
overnight, as you know, even with the income from the Economic 
Recovery Fund. And so while we have begun to make progress in 
creating economic recovery and economic self-sufficiency, we 
have a long way to go.
    And I could go on and on, Senator Conrad, but I think you 
can see from what I have talked about and what is listed in our 
resolutions that have been submitted for the record that the 
funds are being spent for the purposes intended by the act.
    So what do we still need? As I stated earlier, there are a 
large number of unfulfilled JTAC commitments. A health care 
facility. We are currently putting together, as you can see on 
the conceptual drawing, a 24 ambulatory care facility. This 
facility could take care of the many urgent health care needs 
that will be testified by Fred Baker a little bit later on, and 
this facility is extremely important because of the flood, 
because of the separation of the communities that was mentioned 
earlier, and the distance around is very critical to the well-
being of our members.
    The facility's extremely important because also the number 
of enrolled members who reside on the Reservation has nearly 
doubled as shown by the 2000 Census.
    We know that a full-scale hospital is not possible, but 
describing such problems as the 24-hour on-call situations 
where a physician can only refer patients to another clinic 
that is not open 24 hours is simply not acceptable to our 
people in the 21st Century, 50 years after a new hospital was 
promised us.
    And each year, Senator Conrad, we could spend every dollar 
of income from the Economic Recovery Fund and still not satisfy 
the health care needs of our people. This fact alone is a major 
inhibitor of effective long-term economic growth and self-
sufficiency that causes tremendous loss and productive years of 
life for our members.
    Under education, as we will testify, our achievement levels 
in education are still behind the national average and the 
statewide averages. Dr. Joyce Burr has done significant 
research in this regard, and also Holly Echo Hawk's study of 
one of our communities shows that we are suffering from some of 
the symptoms of a post-traumatic stress disorder caused by the 
dislocations of our people, not just once but many times over 
the past 150 years, including perhaps the unkindest relocation 
of all, and that is the Garrison Dam. And at least a third of 
our people--of our students, I should say, are affected by 
this.
    A central dormitory high school, which will employ a 
therapeutic model has been identified by research as one of the 
best ways to change the statistics, but we cannot do this under 
the present economic development income.
    We need a facility that will allow those that have been 
most affected by the dislocation to have a chance to improve 
their lives.
    And finally, Senator, on the irrigation, we need 
authorization and appropriation of funds for irrigation. Over 
15,000 acres were authorized by the 1986 Reformulation Act, but 
there are no funds for these irrigation acres. The 60 million 
originally authorized was folded into the authorization by the 
Equitable Compensation Act, yet no funds of that authorization 
were ever actually appropriated or included in the final 
funding of the Permanent Economic Recovery Fund.
    And food sources were critical for our culture and 
survival, and after all, we provided food for Lewis and Clark 
the entire time they were with us from our lush gardens that 
produced corn, squash, beans, and many other vegetables in the 
rich soils of the riverbottom lands.
    We literally had tens of thousands of acres under 
cultivation in 1949 when the floods started.
    [Prepared statement of Mr. Hall appears in appendix.]
    Senator Conrad. Let me just stop you right there, and one 
of the things that I really think is important, a point that we 
make here today, is that we are--according to the legislation 
we're owed $60 million that we've never gotten. We had $149 
million, and we got that. We had $149 million in the basic 
fund, but in addition to that we were specifically promised in 
this legislation $6 million a year for 10 years, and that was 
to be the fund for the irrigation on the reservation. Now 
separately we have the Dakota Water Resources Act and we 
understand that, but it's very clear in the legislation. We're 
owed $60 million. That's due and owing today. Is that your 
reading?
    Mr. Hall. Yes; it is, Senator Conrad.
    Mr. Gillette. Plus interest.
    Senator Conrad. And Austin points out we're owed the 
interest on that now, too. I think that would be a fair--that 
would be a fair conclusion. We really--we're owed $60 million 
plus the interest on that money that has never been paid over. 
That's a lot of money, and it's clearly owed to this tribe by 
the Federal Government, I believe.
    Mr. Hall. Thank you very much for pointing that out in the 
legislation for us, Senator Conrad, and I hope my attorney 
knows where to look for that--or our attorney and the legal 
department.
    Senator Conrad. Page 192.
    Mr. Hall. Thank you very much for that help. We'll address 
that to Tom Disselhorst.
    Those acreages have not been deauthorized, but no money has 
been authorized for their cultivation. We have a number of 
projects that could use those irrigated acres to produce 
barley, oats, corn, alfalfa, and hay for a feedlot and many 
other purposes, and currently we are looking at a slaughter 
plant on the east side of the reservation to take advantage of 
the--acres in the Lucky Mound area by Parshall and White 
Shield.
    And in conclusion, Senator Conrad, the Economic Recovery 
Fund again is a good start for us, and it's done great things 
for us, and again we want to thank you for all your efforts in 
this regard, but I want to emphasize that still many promises 
made to us are not quite fulfilled yet.
    We need to work hard to get adequate appropriations each 
year to fulfill the promises of the Dakota Water Resources Act, 
and we need to work toward obtaining the funds needed to 
replace the infrastructure lost to us 50 years ago and also the 
irrigation funding that you've pointed out, over $60 million, 
and these are still unfulfilled promises to our people, and we 
should not rest until these promises are finally kept.
    And, again, we want to thank you for all your efforts, 
Senator. We look forward to spending some time with you today 
to show you all of the projects that we have done, and I would 
like to say that we'd like to submit additional comments, and I 
will be happy later on to answer the questions that you have.
    Masehgedatz. Thank you.
    Senator Conrad. Thank you very much, and as we indicated, 
your full written testimony will be made part of the official 
record of the Committee on Indian Affairs.
    Before we miss this point, I think it's very important to 
know that this is not money that is a gift. This is not money 
that's a handout. This is money that is owed by the Federal 
Government. When the land was taken from this tribe, promises 
were made, and during the Reagan administration the then 
Secretary of the Interior appointed a special committee to look 
into the legal obligation--legal obligation of the Federal 
Government to the affected tribes.
    They concluded that the Federal Government owed this money 
to the tribes, and if the tribes were to bring suit in the 
Federal courts, these were the amounts of money that they would 
recover. So I think it's very important to understand this was 
money that was owed legally by the Federal Government to this 
tribe for things that were given up by this tribe at the time 
land was taken. In other words, the tribe was not compensated 
fully and completely for the things that it was promised. That 
is clear.
    That is why we were successful in getting the $149-million 
settlement fund, but in addition to that, upon examination of 
the record it was also clear that we were owed this additional 
$60 million for irrigation projects that were promised as part 
of the Garrison Diversion Project.
    That was a legal obligation entered into by the Federal 
Government that has to this day not been kept. It is part of 
the legislation. It is very clearly set out there. We were 
supposed to receive $6 million a year every year for the next 
10 years. That money, not one dime of it, has been paid over, 
and it is clearly due and owing the tribe. So that is important 
to understand.
    No. 2, to me it is also very clear that we were promised, 
this tribe more specifically, was promised a bridge. That 
promise is now being kept. This tribe was also promised health 
facilities, specifically a hospital. That promise has not been 
kept. This tribe was promised in addition new school 
facilities. We might say that's been partially kept but in 
large measure not.
    If we look at the other trust responsibilities of the 
Federal Government, I think that any objective analysis would 
say that is another promise that was made at the time of the 
flooding of these lands that has simply not been kept and that 
we should insist as a matter of fairness and, more than that, 
as a matter of law--as a matter of law that should be kept by 
the Federal Government.
    The Federal Government has an obligation when it makes 
promises to keep them, and so I say to you today I believe part 
of the unfinished agenda is certainly the completion of the 
bridge, certainly the medical facilities that have been 
promised, the educational facilities, and the 60 million 
dollars, plus interest, that is owed to the tribe at this time. 
That is my own reading of what is legally obligated by the 
Federal Government. It is still outstanding.
    [Applause.]
    Senator Conrad. Let me now go to Cora Jones, who is the 
Aberdeen Regional Director of the Bureau of Indian Affairs, and 
ask her for her testimony.

STATEMENT OF CORA JONES, DIRECTOR, GREAT PLAINS REGION, BUREAU 
                       OF INDIAN AFFAIRS

    Ms. Jones. Thank you, and good morning to everyone, and, 
Senator, before I get started I would like very much to thank 
you for the opportunity to be here because it's always a 
pleasure for me to witness your willingness to assist our 
people, and I thank you for that, and beside me, I'd like to 
introduce to you Dr. Baker, and he's the superintendent here at 
the Fort Berthold Agency, and he's new, but he's doing a great 
job for the tribe.
    Senator Conrad. Welcome. Good to have you both here. Thank 
you very much. Please proceed with your testimony, Cora.
    Ms. Jones. Senator Conrad, Mr. Chairman, I am pleased to be 
here to discuss the Three Affiliated Tribes Economic Recovery 
provisions of Title XXXV of Public Law 102-575, the Three 
Affiliated Tribes and Standing Rock Sioux Tribe Equitable 
Compensation Act, an act to ensure that the Three Affiliated 
Tribes of Fort Berthold and the Standing Rock Sioux Tribe were 
adequately compensated for the taking of Indian lands for the 
site of Garrison Dam and reservoir and the Oahe Dam and 
reservoir, and for other purposes.
    The act established the Three Affiliated Tribes Economic 
Recovery Act in the U.S. Treasury. Sources for this fund are 
derived from the revenues generated in the Eastern Division of 
the Pick-Sloan Missouri River Basin Project and the 
congressional appropriations with a maximum limit of 
$149,200,000.
    Since only the interest of this fund is available for 
payments to the tribes by the secretary, the act requires 
interest to be deposited into a separate account. The act also 
limits the use of these payments by the Three Affiliated Tribes 
for education, social welfare, economic development, and other 
programs, subject to the approval of the secretary. The 
approval authority was delegated to the Bureau of Indian 
Affairs Regional Director for the Great Plains Region.
    Until January 2001, the Three Affiliated Tribes submitted 
their individual requests for funds to me as the regional 
director through the Fort Berthold Agency superintendent. These 
requests were reviewed for compliance with the act, approved as 
appropriate, and coordinated with the Office of Trust Funds 
Management for fund distribution.
    On January 12, 2001, a general plan was approved by myself 
as regional director entitled ``Three Affiliated Tribes 
Economic Recovery Fund Proposal.'' The plan outlines the 
tribes' proposed use for the interest fund, and the plan has 
been shared with OTFM. Upon the BIA's authorization of each 
funding request that is in compliance with the plan, the 
request has been promptly forwarded to OTFM for processing.
    Funding requests outside of the plan will require--which 
require modifications and/or amendments to the plan will then 
need to be submitted--or must be submitted by the tribe to the 
superintendent--to the regional director for approval prior to 
the BIA forwarding the funding request and the modified and/or 
amended plan to OTFM for processing.
    The approved plan was established in consultation with the 
tribes.
    Senator, I have with me copies of all the resolutions, the 
plan, and all the forms which are the forms which initiate the 
drawdown of the funds for the tribe of the--for the JTAC funds, 
and, Senator, if you'd like these documents, I would be happy 
to give them to you, and this concludes my prepared statement.
    If you have any questions, I'd be happy to answer them.
    Senator Conrad. Yes; I would like those documents, and they 
will be important for the committee record. I'd like now before 
we go to the second panel to have a chance to ask questions of 
the chairman and Cora Jones, the regional director, about the 
sources and uses of funds so far.
    We know that we had the $149 million. That's the base 
amount of the fund. That's kept in the U.S. Treasury. The 
interest is paid over to the tribe. Can you tell me how much 
the interest earnings have been so far? Just by my cursory 
review it would appear to be something over $70 million. Is 
that--is that approximately correct?
    Mr. Hall. From 1998 to 2001?
    Senator Conrad. No; from the whole period, the amount of 
interest that has been paid over to the tribe or made available 
to the Tribe. What was the total amount?
    Mr. Hall. I believe that's about correct.
    Senator Conrad. It would be about $70 million?
    Mr. Hall. I believe you're very close, Senator Conrad.
    Senator Conrad. If you'd like to pull up a chair there, 
Dan, you're certainly welcome to.
    Mr. Hall. Yes.
    Senator Conrad. For the committee record, it's important 
that we establish what the full amount of the interest earnings 
has been and then how that money has been used. I know the 
first interest allocation after the 5 years was $37 million. I 
know that number.
    Mr. Hall. Let me state this.
    Senator Conrad. Yes.
    Mr. Hall. I think, Senator, Dan, Marcus, and Austin have 
pointed out under our financial report that's been submitted by 
Steve Salveson, who is our CPA, we have spent $37,590,097, but 
we still have the $30 million in the investment fund. So that's 
$67.5 million.
    Senator Conrad. Yeah. That would be very close. I kind of 
did a back-of-the-envelope calculation at breakfast this 
morning and came up with about $70 million. What you're telling 
me is the accurate number would be $67.5 million?
    Mr. Hall. That is correct.
    Senator Conrad. I accept that. That makes sense to me; 
$67.5 million. And so $30 million, as I understand your 
testimony here this morning, has actually been reserved for 
further investment. Instead of spending all of the interest 
income, the tribal leadership has made the decision to actually 
save and invest some of that money in the amount of $30 
million.
    Mr. Hall. That's correct, Senator. We've developed an 
investment fund out of that $30 million, and we're going to--on 
our resolution by October 1, 2001 we will be putting that into 
private placement, and we've also got a referendum to that 
effect by the people that supports the $30 million to be used 
for a permanent investment fund for the future.
    Senator Conrad. And how will that fund be managed?
    Mr. Hall. The tribe by resolution and by also doing an RFP 
with various financial investment firms has identified two 
financial firms that will invest $15 million, each of it, and 
then thereafter whoever gives us the best service--we may 
choose just one investment firm after that.
    Senator Conrad. And can you tell us who the two firms are 
that will be----
    Mr. Hall. Yes; the first firm is the Community First Bank 
of Dickinson, North Dakota, and the second firm is Gang-Rosher 
Investment Firm I believe out of Phoenix, Arizona.
    Senator Conrad. So those two firms would each have $15 
million of the investment, that they would in effect manage 
that investment?
    Mr. Hall. That's correct. And they've identified through 
their RFPs that we'll amount to at a minimum 8 percent to 10 
percent interest on that $30 million--or the $15 million, and 
we're currently getting around 4.5 percent to 5 percent at the 
Office of Trust Funds Management in Albuquerque.
    Senator Conrad. So you're getting a far higher rate of 
return as a result of this strategy of taking some of the money 
and further investing?
    Mr. Hall. Yes Senator; it's actually almost doubling the 
interest from 4 percent to 5 percent to between 8 percent and 
10 percent by putting the $30 million investment fund into 
private placement.
    Senator Conrad. Okay. I appreciate that. Now if we could 
turn our attention to the other--Dan, do you want to talk?
    Mr. Press. Tex and I were talking last night that the 
tribe's decision to reinvest the fund guarantees money for 
future generations. We thought you'd enjoy this. This is a 
sharp contrast to what occurs in Washington, making it much 
more difficult for future generations.
    Senator Conrad. In fact, maybe we could ask all of you to 
come to Washington and instruct our leader there, because you 
guys are saving the surplus, and unfortunately in Washington 
it's just the opposite of that. Let me just say this: We should 
now turn our attention to the $37 million that has been 
expended of the interest, and if you could just review for the 
committee and for the record the use of the $37 million.
    As I understand it, and correct me if I'm wrong, there 
would have been $14 million for fiscal year 2001, $12.5 million 
for fiscal year 2000, $14 million for fiscal year 1999, and 
then is there a $5.5-million that had been expended before that 
plan?
    Mr. Hall. Yes; that was in 1998, Senator.
    Senator Conrad. So that would give us a total of $37.5 
million. Do we have for the record--or could you provide, if 
you don't have it here today, how that $37.5 million has been 
expended? Do we have a--a record of that that we could submit 
for the record?
    Mr. Hall. Yes; we do, Senator, and, again, on a page--what 
I haven't submitted which has just been prepared for me by 
Steve Salveson, our CPA, there is a breakdown of the $37.5 
million, and overall from fiscal years 1998 to 2001 the highest 
amount has been--$16.5 million has been allocated for economic 
development, $10 million for social welfare, 7.6 for other 
programs, and $3.3 million for education, for a total of $37.5 
million.
    Senator Conrad. Okay. If we could just go over those one 
more time. $16.5 million for economic development.
    Mr. Hall. That's correct.
    Senator Conrad. And could you give us some examples of what 
the economic development expenditures have been? You've already 
in your testimony referred to a number of items, including the 
home-building operation and, of course, the Mandaree operation. 
Are there other examples of how that money has been used? I 
assume that some of the financing for the casino expansion--I 
take it from your testimony money has been used there.
    Mr. Hall. Yes, Senator; the casino expansion is by far the 
largest amount of leveraging our moneys for economic 
development. There's the Mandaree Enterprise of 800,000. We've 
also utilized moneys for the Twin Buttes Custom Homes, our 
plant that employs 50 people. We pay approximately 350,000 a 
year for the interest payments for their bond until they can 
become self-sufficient, and we hope after 3 or 4 years they can 
do that.
    Senator Conrad. And in terms of the casino and the--you 
mentioned the hotel expansion, what's been the expenditure 
there? Do we have an estimate for that?
    Mr. Hall. I think from what Tom has just indicated and 
Marcus was telling me, it's about--which we didn't use the JTAC 
for but we leveraged the moneys for it, and it was 
approximately $14 million, but we had a financing company--we 
did a comparison with--with JTAC leveraging our interest rate 
and without JTAC, and it was substantial. It was probably two 
interest points difference by utilizing the leveraging of the 
JTAC funds, and two interest points as you know, Senator 
Conrad, is literally millions off a $15-year note for a $14-
million expansion project.
    Senator Conrad. So actually you didn't use the JTAC money 
to fund it. You went out and borrowed the money, but you used 
the JTAC money as an assurance that it would get repaid, and 
because they saw you had that money available they gave you a 
lower interest rate?
    Mr. Hall. Absolutely, Senator.
    Senator Conrad. And two full points reduction?
    Mr. Hall. I believe it was about two full points, but 
Marcus and Austin, both treasurers, are indicating yes.
    Senator Conrad. So that would be probably 20 percent less 
interest cost than you would otherwise have spent.
    Mr. Hall. That's correct.
    Senator Conrad. Okay. I can tell you I'm very impressed 
you're using Miller and Schroeder because they, of course, have 
one of the best reputations in our area as being a firm. If you 
could get the committee--and perhaps you have it in the 
testimony that you're about to submit--the breakdown on that 
$16.5 million, that would certainly be useful to the committee 
and how those funds are being used for economic development.
    Then in the next category you indicated there were social 
betterment programs of some $10 million; is that correct?
    Mr. Hall. Yes, $10,030,191, to be exact.
    Senator Conrad. Okay. $10,030,000. And can you give us 
examples of how that money has been used, Chairman Hall?
    Mr. Hall. Yes, Senator; we allocated as far back as 1997 
$507,882 for our daycare center. We supplemented in 1997 also 
$218,000 for senior citizens, $167,000 for a Wake Fund--to 
supplement our Wake Fund for our tribal members.
    In 1998 we again supplemented our daycare of $173,129 for 
the elderly. In 1999 we supplemented our TERO department 
$100,000. We supplemented the elderly program of $224,000. We 
supplemented the Wake Fund $124,000 and Tribal Court $104,000.
    In the year 2000 we supplemented the cops--you see a lot of 
the law enforcement officers seated in the audience today--
$186,000. As you know, those are 3-year grants and they run out 
and the tribe picks it up. We supplemented the elderly program 
$397,000, the daycare $193,000, our Wake Fund $107,000, senior 
citizens again $65,000, and our aging meals $87,000. And in the 
year 2000, $750,000 for the 36-unit apartment complex at Four 
Bears, $50,000 to the alcohol and drug program, and $15,000 to 
our elderly program, all under the social welfare category.
    Senator Conrad. Now that's--the 36-unit facility, that's 
going to cost, I assume, more than the $750,000. Is that just 
the----
    Mr. Hall. It's approximately $3 million for the total cost, 
and that was our match, and I believe the housing utilized 
NAHASDA and they utilized a USDA loan, and that was the 
maximum.
    Senator Conrad. So the total funding was made up of some 
money from JTAC, some money from the NAHASDA, some money from 
USDA----
    Mr. Hall. That's correct.
    Senator Conrad [continuing]. For the rural development 
funds?
    Mr. Hall. That's correct.
    Senator Conrad. So you are really--you are really 
strengthening the use or you are multiplying the use of your 
JTAC funds. You are leveraging those funds to get additional 
Federal funds to be able to build that facility.
    Mr. Hall. Absolutely. And if we did not have the JTAC 
funds, we would not be able to supplement to get the full 36 
units. We might have been lucky to get maybe one-half or one-
third of the necessary units and had to find some money from 
other sources. So, again, the use of the JTAC funds clearly 
helped us get the complete 36 units but also again the low 
interest loan on the USDA rural development.
    Senator Conrad. I can tell you one thing I think the 
committee is going to be very interested in and very pleased 
about is that this JTAC funding is being used to leverage 
additional funding, either private sector funding, because as 
you've described with the casino financing you're actually--
because you had that stream of income coming, you're able to 
get a much lower interest rate. So that's substantial savings 
on that operation just because the JTAC money is available. I 
think the Committee will be very pleased to hear that and on 
the leveraging for the purposes of providing additional 
housing, as well. Let's go--if we could go then to the--maybe I 
need to go back to the first category because you've indicated 
$16.5 million in economic development. What's the biggest 
expenditure in the economic development category?
    Mr. Hall. We have a number of large categories, Senator 
Conrad, if I can just give you a few. Back in 1997--let me 
correct that--1996 approximately $500,000 was for MRI for our 
water distribution plants back then. That's a large figure 
$800,000 for Mandaree Enterprise Corporation is one of our 
larger figures. We supplemented the Four Bears Community Center 
of $582,000 for their new community center.
    We also allocated $443,000 to the segment employee program. 
That was Councilman Fox's resolution about the segmented 
employees, basically providing more outreach for each of the 
districts. So that's money well spent. Again, we supplemented 
that program. That was in 1998 and in 1999 under the segmented 
employee program, $614,000, and, again, that's to provide 
better services.
    Buffalo program, $600,000. We now have over 1,000 head. Of 
our buffalo--we supply the buffalo plate at the casino. Maybe 
we can try some of that later, Senator Conrad.
    Again, the MRI in 1999 was $864,000. Two other line items 
for the White Shield Data Entry Plant, in 1999, $335,000, and 
the Parshall Data Entry Plant $361,000.
    And then as I move to the 2000 year, segment employee 
program, $644,000; solid waste program we supplemented 
$142,000--almost $143,000. Land purchases, $307,779. Of course, 
you may or may not be aware, Fort Berthold has a lot of 
fractionated parcels that tribal members are selling to the 
tribe now. Again the White Shield Data Entry Plant, $175,000. 
White Shield Development Corporation in the year 2000, 
$223,000. Purchase of gravel--crushed gravel, $51,000, and 
we're currently doing home access roads with this $51,000 of 
crushed gravel.
    If you drive just to the west of us, you'll see a lot of 
the newly built roads--of course, we have the $750,000 for the 
roads equipment. So we have tribal roads, tribal members 
driving tribal equipment. Marcus Wells, Jr., just indicated we 
supplement the BIA roads program $300,000 annually, and my 
understanding is they don't own the equipment, and so we 
purchased equipment--we purchased the equipment and we provide 
additional staff so that all of the segments are covered now, 
and, of course, with the tribal JTAC money now we can build 
home access, and you can't with Bureau funds. So that's another 
feature that Marcus has reminded me.
    Senator Conrad. Well, I'm going through this for a reason, 
and I think you probably know the reason. What we see here is 
you are having to use some of the JTAC settlement money to do 
things the Federal Government should be doing.
    That's one of the things that is--I applaud you for doing 
it. I thank you for doing it. You're doing the right thing, but 
really the Federal Government should be doing these things. 
They, frankly, owe you the MRI money. You shouldn't have to be 
using your JTAC money for that purpose. You shouldn't have to 
be using your JTAC money for the roads, but because there's 
inadequate funding of those things, you really had no choice in 
terms of the health and safety of the people in your community. 
So you acted. I applaud you for it. Some people would just 
wait. I'm glad you didn't wait. I'm glad you dealt with those 
problems.
    But I think it builds the case for some of these other 
things. I think this is very important for the committee record 
that we establish there are things here that you have done that 
really were the Federal Government's responsibility to do, and 
you've taken money that was owed to you for other promises that 
were made, and you have in effect helped the Federal Government 
do its job. So just as I'm adding here, there's a substantial 
amount of money in those areas.
    Let me ask you this: In the detailed tables that you will 
provide the committee, under the $16.5 million, does that add 
to--do those tables add to the $16.5 million?
    Mr. Hall. That's correct.
    Senator Conrad. Okay. And then we have the $10 million. 
We've talked about that. The third category, the $7.6 million, 
what was that category?
    Mr. Hall. Most of the others in summary is building the 
tribal programs like the MIS department, as I indicated.
    Senator Conrad. And you'll provide the detail of that in 
your written submission?
    Mr. Hall. Yes; I will, Senator Conrad.
    Senator Conrad. All right. We don't need to take more time 
on that. I think the important thing is we have it all laid out 
for the committee, and I don't want to take more time on this 
segment of the hearing because we have an additional panel that 
we want to hear from.
    So I thank you for what you've laid out here because I 
think it's very important information. It's going to be very 
useful to the committee and really builds the case for what is 
still owed. Thank you, Chairman Hall. Thank you very much. 
Thank you, Cora.
    [Applause.]
    Senator Conrad. I'd like now to turn to our second panel 
and start with Buzz Fredericks to give us a historical 
perspective. If I could ask each of the witnesses, Buzz 
Fredericks, Fred Baker, Marilyn Hudson, and Chairman Hall again 
who will be testifying as part of this panel, if I could ask 
you to summarize your testimony in about 5 minutes each, that 
would be helpful. Thank you and please proceed.
                                ------                                


STATEMENT OF JOHN ``BUZZ'' FREDERICKS, MEMBER, MANDAN, HIDATSA, 
                       AND ARIKARA TRIBE

    Mr. Fredericks. Greetings to all honorable dignitaries that 
are here today. My name is John Fredericks, Jr., better known 
as Buzz. I am a member of the Mandan, Hidatsa and Arikara 
Tribe. I am a member of the Prairie Chicken Clan and a child of 
the Low Cap. I was given the name, E-Zoo-Ba, shin of the 
buffalo, by my clan father, Pete Coffey, Sr., which was my 
Uncle Wilfred Medicine Stone's Indian name. He was killed in 
action in Germany during World War II, so I am proud to have my 
uncle's Indian name.
    I have known our good Senator here for a lot of years, and 
it's good to have you out here again. I especially want to 
thank you and the committee for coming here to hear our 
testimony today on what the Garrison Dam took away from us, and 
so on.
    It seems very ironic that we will be celebrating the 150th 
anniversary of the Fort Laramie September 17, 2001, the treaty 
that our tribe participated in signing that historical day so 
long ago. The treaty guaranteed our tribe a certain land base 
and also provided our Tribe that we would have the opportunity 
to live in peace and tranquility.
    Also, we are in the process of celebrating the Lewis and 
Clark expedition and centennial that will take place in a 
couple years. Of our tribal members, Sacajawea was instrumental 
in guiding this group across the mountains to the West Coast 
and return safely.
    Chief Four Bears, Mandan, stated in his last talk to our 
people that he has always loved the white man and gave them 
food and water and provided them with a buffalo pad to sleep 
on. What he got in return was a rotten face that would even 
scare the wolves, according to his last statement.
    What I am saying to you is that our tribes have always been 
good to the white man, providing the white man with the various 
things he needed to survive the treacherous weather and 
maintain his health and continue on with their discovery voyage 
as I mentioned above.
    On the contrary, the white man does not have a good track 
record.
    Out of 13 million acres or so initially negotiated for in 
the Fort Laramie Treaty, we have less than 1 million acres 
left, the last big land grab when FHA took large tracts of land 
and used the land as security for large economic disaster loans 
back in the seventies and eighties, even though the regs didn't 
call for it. This situation is being litigated in the Federal 
Court at the present time. We ask you to support our efforts 
however you can.
    I attended the elementary school in Elbowoods that was 
provided for elementary education. I graduated from high school 
in 1951 from the Elbowoods High. At that time our nations had 
adapted to farming and ranching as a way of life and were doing 
pretty good at it, I might add. We did not have welfare 
payments to our people. As a matter of fact, it was not a 
concern of our tribal people.
    The cattlemen formed a Federal corporation and operated it 
under the guidance of their chairman and a Federal agent hired 
for assisting with the operation of the ranchers and farmers, 
and I might add that all of our families at that time were 
involved in agriculture. They had a productive bull program to 
breed up their breeding herds and bought feed by the bulk in 
large quantities so it was cheaper, also salt and mineral the 
same way, and they had their own flour and feed mill to provide 
members with flour and bran feed.
    The ranchers even used to haul water with a team of horses 
and barrels from the Little Missouri River to irrigate their 
corn crops during dry years. In fact, the tribe had a sizable 
irrigation field in Lower Elbowoods that provided feed for both 
livestock and our people.
    We also had additional irritation projects out in the 
various districts. We had two sloughs that ran through our 
reservation along with springs and wells that provided adequate 
freshwater for our tribal members. I'm just going to mention 
the fact that when I was a small boy, I used to hook up the 
horses with my dad and we'd put in two barrels across the river 
and go to a spring that came out of the rocks about a quarter 
of a mile west of the crossing, and we would back up our team, 
and he had it fixed so the water would run right into the 
barrels, and then we'd cap it with a canvas so we wouldn't lose 
it between there and home. So that was our water, and that was 
some of the best water you could drink. We pay $1 a bottle for 
it now.
    We also had a good hospital well staffed that provided us 
with good health care services. It wasn't like now when you are 
referred to other health care units in and around the 
reservation area. Then when the bill comes and you refer it to 
the Indian Public Health Service in New Town, ND, you get a 
letter telling you you are turned down for payment but you can 
appeal. Very few people appeal. See attached letter dated 
August 14, 2001, signed by Karrol Parker, Service Unit 
Director, Indian Public Health Service located at New Town, ND.
    We had a good road maintenance crew that was able to 
provide and maintain our road systems to adequately serve our 
people at that time. We had a powerplant that provided the 
electrical needs of our reservation administrative offices, 
health care facilities, our school systems, as well as a number 
of the housing units.
    In 1951 when I graduated from Elbowoods High, we had all 
the above facilities in place and were working well for our 
people. The people on Fort Berthold were living in an 
agricultural economy that provided our people with life, 
liberty and peace in a prosperous community that our people are 
satisfied with.
    During my years in the ranching business I had to move my 
cattle to Nebraska during a drought situation here on the 
reservation. During that time it seemed that Nebraska ranchers 
always had feed from their large, natural lakes and underground 
aquifers provided by nature. I was tossing this around in my 
mind wondering why we weren't provided this kind of feed base. 
Then it occurred to me that we were provided a good feed and 
water base with good shelter, that of the lowlands and river 
and trees that the Great Spirit provided us with, but it was 
again the white man that came in and disrupted all of this with 
the construction of major features of the Pick-Sloan Dam.
    And I might just add there that there were five of those 
dams built and all built on reservations up and down the 
Missouri River. It did not only take the bottom lands and 
thousands of acres of prime land, but it split our members into 
five distinct segments. So we were unable to see each other 
grow up and utilize the resources that the Great Spirit 
provided us with. Therefore, in the last 50 years we turned 
from a welfare-free people living in harmony to a drug and 
alcohol-infested state bringing us into--bringing into this 
world many babies that are--that are alcoholics, is what I'm 
saying. I don't want to get into statistics in that area but 
leave it to someone that is more involved in the area.
    It is my understanding that anytime the Government takes 
something from you, they are supposed to replace it in as close 
a fashion as what they took at the same time that they took it. 
So with that in mind, hear what I have to say today, members of 
the committee and members of the Tribal Business Council and 
other members of our tribe.
    The Government should have moved all of our facilities I 
mentioned earlier west, somewhere in the old district of 
Independence, for example; put in two bridges to tie Mandaree, 
the west segment, and Twin Buttes, the south segment. This 
would put us back in the central location with all the services 
we originally had to assure our people of life, liberty and 
peace. This did not happen, but we have a second chance to get 
this done.
    Therefore, as an elder that has lived during the above 
timeframe, I want you to know that we don't want money. We 
simply want our property returned to us so we can begin to 
initiate the above plan and begin to mend the many wounds 
inflicted upon us over the last 50 years that our Government by 
and for the people created for us by failing to act in a 
timely, responsible way at the time negotiations took place for 
all the losses our people suffered so that our non-Indian 
friends will benefit from the resources that the major features 
of the Pick-Sloan Missouri Basin Program provided for them.
    Public Law 102-575 was amended by S. 6233, Dakota Resources 
Act of 2000. I would like to add that individual landowners 
have not been given their due by the Federal Government for the 
land loss by the Garrison Dam Diversion Project. They have not 
received compensation for water rights and now see that the 
taken area and water is being allocated out to various areas in 
the state. See Bismarck Tribune article dated August 24, 2001, 
entitled ``Land transfer from Corps to South Dakota planned.''
    I'd like to turn the microphone over to John Danks who has 
a few more comments to make about the loss, and so forth.
    [Applause.]
    Senator Conrad. Thank you very much, Buzz, for that very 
powerful testimony. Thank you very much. Welcome. Could you 
identify yourself for the record?

 STATEMENT OF JOHN H. DANKS, MEMBER, MANDAN, HIDATSA, ARIKARA 
                      ELDERS ORGANIZATION

    Mr. Danks. Good morning. Thank you, Senator Conrad. My name 
is John Danks. I'm a tribal member, a resident of the Four 
Bears Community and an active member of the Mandan, Hidatsa, 
Arikara Elders Organization. I thank fellow tribal member, John 
Fredericks, for yielding some time to me, and I thank you, 
Senator Conrad, for your assistance to the Three Affiliated 
Tribes in the many projects, including our new bridge and for 
holding this hearing in this most important issue today.
    I've been authorized by the Mandan, Hidatsa, Arikara Elders 
to make brief comments on three important topics: Return of 
surplus lands; respond to Senator Inouye's letter dated August 
22 concerning the tribe's use of JTAC funds, including the 
planning process and compliance with requirements of the 
legislation; third, Social Security.
    For the sake of time, my comments are very brief. The 
elders' foremost concern is the return of surplus lands within 
the taking area. Public Law 102-575 dated October 30, 1992, 
section 3508, authorized the return of certain surplus lands in 
the taking area to the Three Affiliated Tribes. Later section 
407 of Public Law 103-211, dated February 12, 1994, rescinded a 
good portion of that except Subsection B of Sections 3508 and 
3509 of the Three Affiliated Tribes and the Standing Rock Sioux 
Tribe Equitable Compensation Act were repealed.
    However, Congress provided that the U.S. Army Corps of 
Engineers should proceed with the Secretary of the Interior to 
designates excess lands and to transfer them pursuant to Public 
Law 93-599. The Elders know that these lands are critical to 
our long-term tourism and recreational development. We request 
the Corps of Engineers and the Secretary of the Interior to 
expedite the transfer of these lands to the tribes.
    [Applause.]
    Mr. Danks. Senator Inouye's letter of August 2001 solicits 
comments concerning the use of JTAC funds, including the 
planning process and compliance with the legislation. The MHA 
Elders Organization is not satisfied with how the tribal 
council has used JTAC funds, including the planning process and 
the reporting requirements. We do not hold our tribal council 
totally responsible for their inability to manage JTAC funds in 
accordance with the legislative requirements.
    The Three Affiliated Tribes Constitution and the bylaws are 
inadequate and outdated and do not meet the needs of the 
membership. The burden the tribal council--they burden the 
tribal council with the responsibility of legislating, 
administering and adjudicating all activities of the tribe. 
This concentration of responsibility and authority lessens the 
effectiveness of our Government. There is a quote, absolute 
authority, absolute corrupt.
    Our tribal constitution needs major revisions to ensure 
that the welfare of our membership is protected. The 
constitution must address the separation of powers, 
accountability and reporting of tribal funds, recall of elected 
officials, and a sundry of other revisions.
    Traditionally the tribal elders have provided leadership on 
the important issues relating to the welfare of the people. In 
keeping with our tradition the Mandan, Hidatsa, Arikara Elders 
Organization intends to provide the leadership in the design 
and development of a new constitution for the Mandan and 
Arikara Tribes.
    [Applause.]
    Mr. Danks. This will be done by petition as provided for in 
our current constitution.
    Our tribe's financial accountability and reporting are not 
available to the general membership, and by coming to this 
meeting and hearing my chairman's report, I am pleased with his 
report. It was good, but I didn't hear it before.
    We remind the Senator--no. Our tribes' financial 
accountability and reporting are not available to the general 
membership. It is the position of the Mandan, Hidatsa, Arikara 
elders that our financial system should mirror that of our 
Federal and State corporations. We remind the Senator that the 
Three Affiliated Tribes are not only a sovereign entity; we are 
also a federally chartered corporation.
    The elders wish to point out that the referendum for the 
use of JTAC funds was conducted by the tribal council. However, 
turnout of eligible voters on the referendum was minimum. The 
low turnout of eligible voters is an indication of lack of 
understanding as the wording of the referendum was ambiguous. A 
referendum vote of this importance should have garnered a 
larger turnout.
    A third topic is Social Security. Social Security benefits 
of the elders of the Three Affiliated Tribes is far below the 
national average. The construction of the Garrison Dam 
disrupted the social-economic livelihood of the tribal members, 
creating communities of poverty on Fort Berthold Reservation. 
This disruption deprived our membership of the opportunity to 
earn an adequate livelihood and full participation in the 
Federal Social Security program. The elders organization 
requests your assistance again to remedy this situation, 
similar to the process used to be extend Social Security 
benefits to the farmers and religious organizations.
    We regret that we are not prepared to provide you total 
documentation on these issues today. The time for preparing for 
this public hearing was short. MHA Elders Organizations will 
submit further written comments on these topics within the 
deadline set for this hearing process.
    Again, I thank you, Senator, for coming to our community.
    Senator Conrad. Thank you, and we appreciate that 
testimony, and we look forward to your additional submissions 
for the record, and as I indicated, you'll have until September 
13 for any additional testimony you want to provide.
    Now we'll go to Fred Baker who will testify on health care. 
Welcome. Good to have you

STATEMENT OF FREDERICK BAKER, ENROLLED MEMBER, THREE AFFILIATED 
                             TRIBES

    Mr. Frederick Baker. Thank you. Welcome to you, Senator. 
Welcome to my home. My name is Frederick Baker. I'm an enrolled 
member of the Three Affiliated Tribes, and thanks to my 
grandparents and my parents, I am knowledgeable in the history 
and culture of the Three Affiliated Tribes. We will provide 
written testimony, so I'll try to summarize as much as I can.
    We're trying to really emphasize two points in this 
hearing. One is the need--the level of need of the health or 
the status of the health on the reservation, and second is our 
vision or our dream of what we feel is necessary in order to 
improve the situation. I just want to point out that in the 
three tribes, the Hidatsa, Mandan, Arikara, we've demonstrated 
over the years the tremendous resilience and adaptability over 
the years, you know, considering the effects of the smallpox 
epidemic of 1781, the smallpox epidemic of 1837, us being put 
on reservations and losing our lifestyle and adapting very well 
to the--to the new situation that we were put into.
    We all adapted into those communities such as Independence, 
Lucky Mound, Shell Creek, places like that where we think we've 
adapted. We started to go from using the buffalo to using 
cattle and became cattle ranchers and farmers where we learned 
how to deal with the problems that we had and we became very 
strong communities, including our ability to take care of our 
health care needs. We knew how to deal with certain kinds of 
illnesses, we knew what resources we had in our communities, 
and we did very well in keeping ourselves alive and at the 
hospitals.
    Unfortunately, during the 1940's, early 1950's the whole 
Garrison Dam process came into existence, and with that was a 
tremendous and drastic change in our lifestyles. A change in 
our diet, change in our cooking mechanisms, and as a result, 
the last 50 years has seen a great increase in things like 
depression, diabetes, hopeless poverty, obesity, alcoholism, 
loss of self-esteem, and those kinds of things, and that 
resulted in an increase in things like diabetes, hypertension, 
heart disease, cancer and all this, use of alcohol, increased 
trauma, and so forth.
    Kind of moving quickly to the present situation, one of the 
things just looking at in our report, in our improvement act, 
fund distribution, there's a couple of things I want to point 
out. One is that the Aberdeen area that we are part of seems to 
have a large part of the health problems of the Indian health 
community, and yet we're one of the lower funded areas when it 
comes to the distribution of money, and a lot of this has to do 
with the whole idea of looking at the population and user 
funds.
    Our population may not be as great as Oklahoma, for 
instance, but yet our--the things like isolation, the various 
kinds of problems that we've encountered over the years such as 
the Garrison Dam, has caused us to have a large and very 
difficult health care situation, you know, and this 
distribution in 2000--I want to point out that, you know, the 
Oklahoma area, for instance, received over 30 percent of the--
of the money that was given to the tribes are given to the 
areas in the Indian Health Care Improvement Fund distribution. 
So we think it's grossly unfair.
    We have a 50--in fact, at this point we have about a 50-
percent level of needs funded. According to the--this was a 
document that was produced by the Indian Health Service. We 
have a user population of about 5,683, and last year we had--in 
1999 we had a total of 86,830 visits to our health care 
facilities here. In 2000 we saw 90,020 visits, and these are--
the main clinic is here, and we also have satellites clinics at 
White Shield, Twin Buttes and Mandaree.
    Moving along quickly, some of the things that we 
desperately need are 24-hour care. We don't have 24-hour care. 
All of us have access to--to the ambulance services around--in 
our communities, and most of these ambulance services, as you 
know in other parts of rural North Dakota, are based on the 
volunteers, you know, and so it's a tremendous problem. Many of 
our people have died en route to their facility because there's 
no 24-hour service available anywhere in this area. The other 
thing I want to point out is quickly, you know, that there----
    Senator Conrad. Can I just interrupt you and ask you--I 
assume the closest 24-hour care would be in Minot?
    Mr. Frederick Baker. Yes; by and large. There is a hospital 
in Stanley, but they're limited.
    Senator Conrad. Is that emergency--I don't even know if 
they have an emergency room there.
    Mr. Frederick Baker. They do have an emergency room at 
Stanley.
    Senator Conrad. Is that staffed 24 hours?
    Mr. Frederick Baker. Yeah. But for all practical purposes 
it is Minot, and that's 70-some miles away. Yeah. I failed to 
introduce my consultant here, Dr. Biron Baker. Dr. Biron Baker 
is one of the up-and-coming physicians. He's the chief of 
medical staff. He's a family practice board-certified physician 
and a member of our Tribe.
    [Applause.]
    Mr. Frederick Baker. Somebody alluded a few minutes ago to 
contract health care denials, and, you know, in 1998 there were 
2,221 cases of denial of the Indian Health Service, and the 
estimated cost of these denials were $1,084,623. In 1999 this 
went up to 3,401 cases--3,401 denials, and the cost of that was 
1,365,282, and in 2000 that's gone up to 3,824 cases. The 
monetary amount is a little bit less, 1,216,000, but in this 
year alarmingly as of May 18, 2001, which is not quite one-half 
of a fiscal year, we had 2,783 cases denied. That estimated 
cost is 1,130,755.
    Senator Conrad. That's through what month?
    Mr. Frederick Baker. It's through May, May 18. It's not 
quite--well, it's----
    Senator Conrad. About halfway through the fiscal year.
    Mr. Frederick Baker. Yeah. So I just wanted to point out 
again--I might have done it already, but in the interim fiscal 
year 2000 the Indian Health Care Improvement Act shows us at 50 
percent of our level of need. In order for us to come to--and 
these are IHS statistics. In order for us to come to the--at 
this point the target, 60 percent level of need funded, even if 
we were to get to that point, we'd need $1,556,882 in order to 
get to 60 percent of our need. We'd still need a 40-percent 
level of need funded. To get to 100 percent we'd need an 
additional $7,532,643. This is according to Indian health care 
statistics.
    But I'm retired as the service director for the Indian 
Health Service, and when I was working, the average cost for 
health care in America was at about $3,450 roughly, give or 
take, and at that point we were funded about $1400 per capita. 
So we were more than 50 percent under the average cost.
    So with that, I'd like to move quickly to--well, we do 
have--and I'll submit this as testimony. We've been working on 
this. We have a comprehensive health plan that was completed in 
1997, you know, that has--including the impressions and the 
opinions of people in our community. We also have a--with that 
is a vision of a center, a new health care center that would 
allow us to do several things.
    Senator Conrad. Can you tell me what the estimated cost of 
that health center would be?
    Mr. Frederick Baker. I believe at that time--we haven't 
updated it, but at that time it was--depending on the model 
that we were able to do, we're talking somewhere between 14 and 
18 million dollars, and we were talking about at that point, 
you know, a possibility of a joint venture, and although a 
joint venture is authorized, there has never been any 
appropriations. So we were very interested at that point in 
trying to participate in the joint venture.
    As far as the way the Indian Health Service and Congress 
calculates the construction needs, you know, again because of 
our numbers, we're not eligible--we're so far down the line in 
priority as far as construction that we're not able to get on 
the list, and at this point in time the list is apparently 
frozen so that no new facilities can be added to the 
construction list.
    With the new--the new hospital some of those things--or 
some of those plans--we're talking about a comprehensive health 
care clinic that would have the capability of doing procedures 
like ambulatory care, 24-hour-a-day service, and those types of 
things, and with that that would increase our capability. I 
think over the last few years, you know, our level of health 
care has--as far as our ability to provide care has improved in 
that we brought in, you know, physicians that are very able--
and I think one of the shortcomings with Indian health care is, 
unfortunately, with the government system. It's very difficult.
    I was in the business for 17 years as the service director, 
and I tried to recruit physicians and to keep physicians once 
they came to the service area, and since then prescriptions are 
gone, there's a reduction in the repayment, and so forth. So I 
think one of the things that was very difficult was to find 
physicians that would be willing to come to work at Fort 
Berthold and work at the level of salary that we were able to 
provide them, especially when we were concerned with the level 
of care or meeting the standards of care.
    I think we've resolved that. We entered into a contract 
with the tribe to provide physician care. They provided us with 
additional funding and then give it back to the Indian Health 
Service to manage it. It's a very good arrangement, and I just 
want to say quickly that as a result of those improved 
physicians, you know, our lab costs have gone up radically, our 
x ray costs have gone up radically, the kinds of pharmacy 
items, the kinds of drugs that we're giving out have gone up 
radically.
    Those costs are--they're to improve your health care, but 
the costs are--we've got, I think, five exam rooms, and the 
industry calls for one--or three exam rooms and one nurse for 
every physician, and we have--we have five exam rooms totally 
for three doctors and one nurse practitioner. We have two--we 
have three full-time nurses, but with vacation time and all 
that we're down. So the biggest complaint we get constantly, 
and there's nothing we can do to improve that, is the space 
problem. No matter what we do, when I was working as the 
director, I spent endless nights trying to figure out how to 
improve patient flow and how to increase our patient numbers 
because the demand is tremendous, and, you know, no matter what 
you do, you've always got those space problems.
    So with that we'll submit stuff in writing, but I'll stop 
at that point, but we do have a plan, and our plan is to build 
an ambulatory care center capable of providing needed 
additional services like 24-hour care, a mental health program 
that will be accomplished--exercise facilities, education 
facilities, those types of things.
    Senator Conrad. All right. Thank you very much. We 
appreciate your time, and, Dr. Baker, it's good to have you 
here, as well.

                    STATEMENT OF BIRON BAKER

    Mr. Biron Baker. Good morning, Senator, and thank you for 
your time. I just have a few things to add to what Mr. Baker 
already alluded to. I'll be brief in the interest of time.
    We talk about a lot of our health care needs, and 
everything that we talk about has been well-documented in terms 
of the diseases that ravage our population, and we try to think 
about some of the things that would provide immediate benefit, 
immediate relief, and a new facility would do this in a number 
of different ways.
    As Mr. Baker alluded to earlier, the space at the clinic is 
a problem. We've done patient satisfaction surveys and found 
our patients are satisfied with their physicians, they're 
satisfied with their pharmacy experience, they're satisfied 
with lab personnel. Everyone is doing a good job until you get 
to how much time did they spend in the clinic, and, 
unfortunately, one of the most frustrating things is to study 
something and then not be able to do anything about it.
    With a larger, new facility we would have the space 
necessary. We would have three exams rooms per physician to--
the necessary space for patient turnover, for patient flow. 
Continuity would also be improved with a new facility. We could 
enclose within this new facility the mental health, as well as 
health education. All of these things being provided under one 
roof would enhance the continuity of care, and continuity has 
also been an issue with Indian Health Service, but historically 
in terms of health care professional turnover.
    If we had a newer facility, this would allow us to enhance 
services available to our patients in terms of mammography, in 
terms of enhanced laboratory testing, also physical therapy, 
occupational therapy for those patients who have had strokes, 
those patients who have had myocardial infarctions and are in 
need of cardiac rehab. We would be able to provide these things 
onsite and enhance the services that we deliver. 24-hour care 
would also be something that we would strive for because it's 
unacceptable for us not to have it.
    Some of the intangibles that would improve with a new 
facility, some of the things that we don't often think about, 
would be the quality of worklife for those people employed by 
Indian Health Service and the tribe to provide health care. The 
quality of worklife has been an issue in terms of recruitment 
and retention of health care professionals. If we find well-
trained professionals, they must have a facility that allows 
them to practice medicine to the standard of care to which they 
were taught, and this is true for physicians, it's true for 
dentists. Currently we have no dentist, and this is something 
that causes us no end of grief. We will continue to look. 
However, with the Federal salaries being what they are, I don't 
anticipate that we're going to find anyone any time soon.
    Also, the patient perceptions of the health care that 
they're receiving would improve in a new facility. If my 
patient could come to me in a new facility, is greeted in a 
warm and courteous manner by the people present, and the 
waiting room is aesthetically pleasing, they feel that they're 
in a real clinic, and one of the complaints with Indian Health 
Service is that I'm not going to a real clinic, I'm not going 
to a real doctor, and so forth, and this would help address 
that.
    With the addition of a new, aesthetically pleasing 24-hour 
health care center we would also be able to address trust 
issues. A lot of our patients have trust issues, and 
understandably so. Everyone I know has a horror story about the 
Indian Health Service, and we've been able to address some of 
that, but it's slow progress, and with people waiting in our 
waiting room for hours on end, we're heading into a gun. So the 
trust issues could be assessed and dealt with.
    I had an 80-some-year-old lady come to my house and see me 
there complaining of chest pain. All I could tell her was 
you've got to go to the hospital where they can do the testing 
necessary to determine whether or not it's your heart. She 
said, No, I don't trust those guys, and I tried to convince 
her, but I wasn't successful, and this isn't an uncommon 
occurrence. We have the trust of our patients, but we're 
frustrated in that we can't carry through for our patients to a 
greater degree.
    So I think we'd be able to recruit and retain health care 
professionals, well-trained, to address all of our health care 
needs with a new facility. That always helps. It always helps 
to offer something like that.
    The last thing I'd just have to say before passing this on 
is that any health care endeavor on a reservation must be free 
of any political involvement. There can be no political 
involvement in health care. When health care becomes number 
two----
    [Applause.]
    Mr. Biron Baker. When health care becomes secondary, when 
healthcare becomes number two to someone's personal or 
political agenda, my patients have to pay for it.
    Thank you for your time.
    [Applause.]
    Senator Conrad. All right. Thank you. And next we'll hear 
from Marilyn Hudson, discussing the education.

                  STATEMENT OF MARILYN HUDSON

    Ms. Hudson. Thank you. Senator Conrad and members of the 
Committee, my name is Marilyn Hudson, and I am pleased to be 
here today to present a brief perspective on the history of 
education. The proof of a strong, highly-valued educational 
system is well documented in tribal archives. I will recount 
for you several of these memorable records from the past 100 
years.
    School reopened in December 1875 in a small room with 77 
students. ``They are bright and quick to learn,'' said the 
teacher, Hannah Briggs.
    ``Several years after the cessation of hostilities, Chief 
Son of Star again conferred with officials in Washington and 
agreed to cooperate in an educational program for Indian 
children beginning in the abandoned barracks of Fort Stevenson 
in 1883. The educational program has steadily advanced and is 
now an invaluable asset to the tribes,'' said Peter Beauchamp 
in his history of the Arikara people.
    In 1925, 356 Fort Berthold students were attending school, 
many of them in Bismarck, Wahpeton, Pierre, and Flandreau, and 
by 1933 efforts were being made to educate children at home. 
Classrooms were makeshift because the wooden buildings kept 
burning down, and in 1936 a high school was built in Elbowoods.
    A dedication ceremony was scheduled for January 24, 1936, a 
day that began with a blizzard and 40 miles of snowdrifts. 
Through the snow came 230 Indian people to attend the 
dedication ceremonies. Bears Arms, representing the Hidatsa, in 
full ceremonial dress spoke in praise of the fine new building. 
Little Crow and Little Owl, representing the Arikara and Mandan 
people, were unable to attend because of the snowstorm.
    And by 1944, 551 students were attending school on the Fort 
Berthold Reservation. Nishu had 3 teachers and 90 children, 
Shell Creek and Independence had 2 teachers and 50 to 60 
students. Red Butte, Charging Eagle, Beaver Creek, and Lucky 
Mound were 1-teacher schools with 15 to 35 students. Elbowoods 
had an enrollment of 200 students with 10 teachers.
    The average cost per pupil in education in 1943 was 
$124.50, with a range from $83 at Lucky Mound to 155 at 
Independence. This variance was due to such factors as 
transportation.
    In 1953 the educational system on the Fort Berthold 
Reservation was totally wiped out by the Garrison Dam. Since 
then we have struggled to retain the high value our people have 
always placed on education, the sense of community we had with 
the school at the center and the pride of the ownership of a 
fine school system.
    A former student wrote, ``I had great friends and 
relatives. I did not realize it then, but I certainly do now, 
that we had a great school in Elbowoods and great qualified 
teachers.''
    I appreciate being able to tell you what school was like 50 
years ago. Now I'd like to yield the floor to Joyce Burr, 
educational consultant for the Three Affiliated Tribes.
    Senator Conrad. Welcome.
    [Applause.]
    Senator Conrad. Thank you. That was a beautiful 
description. Very well done. Welcome, Joyce. Good to see you.

  STATEMENT OF DR. JOYCE BURR, EDUCATIONAL CONSULTANT, THREE 
                       AFFILIATED TRIBES

    Ms. Burr. Hi. It's good to be here. I'm honored to discuss 
the request for the high school and the adjoining dormitory 
that they'd like to put here at Fort Berthold. I have been 
working as a consultant for the tribe. However, my husband and 
five children are enrolled members of the Mandan, Hidatsa and 
Arikara Nation. So, again, I'm honored, and I'd like to thank 
you for your willingness to examine the needs of the children 
on the Fort Berthold Reservation.
    Like Marilyn said, there were eight communities with 
schools originally, and three schools were built--rebuilt or 
placed after the flood, and also the school that was in New 
Town, ND, just at one time was not considered on the 
reservation, but as they redistricted, they did replace three 
of the original eight, and they did not replace the Fort 
Berthold school, the Elbowoods school and the dormitories, so 
those are no longer here and they've never been replaced, and 
we understand that the compensation was for the land, and so 
they are seeking to have the school and the dormitories 
replaced.
    I am here to testify for high school and dormitories for 
children who are experiencing extreme problems resulting in the 
low test scores and other things that are found to be prevalent 
here at some of our schools.
    Both you and I and many of the community members understand 
that there have been really two major reports on education, the 
Meriam report in 1928 and the Kennedy report in 1969 that 
Congress mandated, and the findings from those reports was that 
Indian education was in deplorable condition.
    The facilities were old, the staff was inadequately 
prepared, the curriculum was not appropriate, and so on and so 
on, and 40 years passed between those reports and nothing 
changed. Since that time in 19--or 1994 a man called Michael 
Charleston made a report, little known report actually that was 
made in the Journal of Indian Education about the condition of 
Indian education, and again he says the same thing that the 
Meriam and Kennedy report says, that Indian education is in 
terrible condition.
    There's not much change that has happened. Curriculum--
there's a cultural mismatch in our curriculum that continues to 
be the same system out there. Nothing has changed. The BIA that 
enrolls the largest portion of students--Indian students--well, 
not the largest portion but a large number of Indian students, 
their system has stayed the same. So we're concerned about 
that.
    Although in recent years there's been much legislation 
passed with self-determination, Elementary and Secondary 
Education Act, those types of things that are friendly to 
Indians. They put us in the driver's seat with education. So 
why are we still in the condition that we're in?
    Recent research that I did here at Fort Berthold shows 
again that we still have low test scores, high absenteeism 
rates, high dropout rates, all those things that contribute to 
poor performance. So we're concerned about those. The Tribe is 
concerned about what they can do.
    The system is the same. We have not changed much with the 
presentation of education to the children, and we feel by 
establishing a school and dormitories here on the reservation 
to serve those children, only the children that are 
experiencing extreme problems, personal problems, problems in 
the school--the schools that are here on the reservation now 
are trying their best. They're struggling with education. They 
need new facilities, they need new schools. They have proposed 
new schools. They have not received those yet.
    However, we're here to talk about those children and such a 
high dropout rate. The National Center for Educational Progress 
made a report in 1993 that said the dropout rate was 26 percent 
for non-Indian children. It was 53 percent for Indian children. 
That's outrageous. We need to do something about it. We need to 
improve our education.
    The school that we're proposing is going to do a lot of 
things. It can lower the student/teacher ratio. It can provide 
a better curriculum that's both culturally relevant but valued 
so that our children can make the transition into the modern 
world. We could provide therapeutic services there for the 
children and their families. We could do lots of extended day 
programs in the evening, things like tutorial programs, 
laboratories, libraries, things like that in those dormitory 
settings. We could provide a safe and secure environment. We 
need that for our children. We need drug prevention, 
intervention, things like that.
    This enrollment would be by choice. It is not going to be 
forced upon anyone. It's not the old boarding school concept 
where people were forced to go there. This school will be here 
in the community. We can promote the language. Let's keep our 
language going, our culture going. Let's keep programs for 
that. Let's not let this language die.
    I have one quote here that I'd like to make, and it was 
done by Senator Burdick, and it was made--recorded from the 137 
Congressional Record, and I quote,

    Mr. President, today I join Mr. Conrad in cosponsoring a 
bill that would provide compensation to the Three Affiliated 
Tribes and Standing Rock Sioux Tribe for land taken during the 
flooding of the Garrison and Oahe Reservoirs. The bill we are 
introducing today attempts to redress the disregard for treaty 
rights and human rights. I believe that the passage of this 
bill will start the healing process for the Indian men, women 
and children who feel that the Government unfairly destroyed 
their ancestral lands.

    Again, we thank you for all that you've done to help the 
tribe in so many ways, and we encourage you to support the 
proposal for a school and dormitories on this reservation.
    The Three Affiliated Tribes has struggled to provide the 
best education possible for its children, and they continue to 
grow and they continue to be creative as you have been. Thank 
you for your time.
    [Applause.]
    Senator Conrad. Thank you. Thank you very much. Chairman 
Hall, in my list of witnesses, we still have you to hear from 
on the question of irrigation, and maybe we could do that. 
We're running over our schedule. We have another event here, 
but if you can summarize any additional comments, they would be 
made part of the record.
    Mr. Hall. I'll be very brief. Senator, I'll be very brief, 
and let me just take off on one statement--one statement, and 
I'll defer the remaining minute of my time to Tony Mandan, who 
started the prayer and will close for us, if I could, Senator 
Conrad.
    In talking with Austin Gillette, our treasurer, on the $60 
million--and I very appreciate your efforts and again for 
holding the hearing on the Equitable Compensation Act because 
it is the single best thing that ever happened to our Tribe in 
the past 100 years. There is clearly no question about it, your 
bold leadership to sponsor that legislation. That's why we have 
young people standing up.
    On the education if I could have the young people from the 
school, if they could stand up, as well, and I think our 
superintendent--if you could have all your students please 
stand up and be recognized because I think education is an 
important component.
    [Applause.]
    Mr. Hall. I appreciate Dr. Joyce Burr in saying that the 
compensation was for men, women, and children of the Mandan, 
Hidatsa, Arikara Nation, but from 1986 to 1996 the $60 
million--8 percent average was equated for $139 million; 1997 
to 2000 it would be at $204 million. So just using some rough 
averages, that's what that would equate to with interest. So my 
sharp treasurer was able to pencil that out in the last 5 
minutes.
    Senator Conrad. That Austin is good with a pencil.
    Mr. Hall. So, again, I want to defer the remaining minute 
of my time to Tony Mandan.

   STATEMENT OF TONY MANDAN, MEMBER, THREE AFFILIATED TRIBES

    Mr. Mandan. Thank you, Tex. Senator Conrad, we've really 
appreciated the things that you have done for our tribe. Most 
of the things that we're talking about is that we're always 
short of money. The Public Health, the BIA, and you name it. 
We're always short of money so that all of our people cannot be 
satisfied. You know that as well as I do, that there's going to 
be a squabble, and, now, you know, I'm a senior citizen and 
there's money set for--for us, but I've asked how much is the 
overhead, you know, and I can't seem to get an answer how much 
the overhead is costing us on that alone, but here we're all 
fighting for the same thing.
    We're fighting for money so that our people can all come in 
on an eye, so to speak, and that's one of the things that this 
JTAC is going to represent. To me we're giving up our sacred 
land on which we've held ceremonials all along the river. 
That's where our people live.
    So today when we're talking about things that we've lost, 
it's true that we lost our schools. I went to school in 
Elbowoods. I was very proud of my school, but that's gone, and 
our kids, you know, have to go to Parshall and New Town, and 
there were two secondhand citizens until just a few years ago 
when we finally got some elected to the board, and so we're 
coming along, but now that we're talking about JTAC, it's going 
to really help because we're looking out for the future of the 
unborn.
    That's what my grandfather done when he signed the 1851 
treaty. He was looking out for us that wasn't born, and my dad 
came along and he talked about old claims. In the fifties our 
senators at that time, I think Burdick and Young, helped us get 
these old claims. These are all the things that our council and 
the people that are working together are trying to get so that 
we will move ahead to--we're up to 10,000 right now. Back in 
1837 I think there was only maybe 50 families of the Mandan, 
maybe a little more than that of the Hidatsa, but our 
enrollment is up to 10,000.
    We're moving along, but we need more money here, and like 
Dr. Baker here is talking about, that we need a 24-hour 
emergency room bad because, you know, there's a lot of 
accidents that could be worked on right here if we had the 
equipment, because we have three doctors here, and our--over 
here she's short of funds because she's serving so many 
reservations.
    So all this really becomes a problem to us that are on the 
bottom of the totem pole, you know, because it goes to the 
people that are working, earning. So when you're down on the 
totem pole, you're not going to get any, you know, so to speak, 
but we've lived through this.
    So that's--I'm saying we want to work together so that we 
can get some more because every four years we have a chance to 
change our council, and I really appreciate what you have done 
for us and Burdick and all the Democratic people that really 
stuck their necks out for our people, our Indian people, and I 
thank you very much for this, Senator. Thank you.
    Senator Conrad. Thank you.
    Mr. Hall. So, Senator, that concludes our testimony today 
for this panel, for the first panel, and we'll offer additional 
comments in the next 14 days for the record. So thank you 
again, and whenever you close the hearing, we have a special 
honor on your behalf for your presence and Senator Inouye and 
the rest of the committee. Masehgedatz.
    [Applause.]
    Senator Conrad. Thank you. Thank you all. Thank you for 
really excellent presentations here today. I've had a chance to 
review some of the additional written material, and I look 
forward to the additional submissions. As we indicated before, 
we'll have until September 13 for any additional written 
comments to be made part of the official record.
    Before we conclude, I want to again thank Chairman Inouye 
for allowing me to hold this hearing today. That was a grant of 
authority that he did not have to make, but he is interested--
vitally interested in how the JTAC process was working, and I 
think we've learned a lot here today that will help us make a 
good record.
    I am--there are five areas that I have concluded based on 
this hearing need to be further addressed.
    No. 1, clearly the $60 million that is owed under the JTAC 
Legislation that has not been paid with interest, that is owed 
to this tribe clearly.
    No. 2, the promise that was made for a health facility here 
has not been kept. That remains an additional obligation of the 
Federal Government, and I believe the clear record of this 
hearing will demonstrate that is owed to this tribe.
    No. 3, I also believe it's very clear a school was 
promised, and that remains an unkept promise, and I believe the 
clear record of this hearing will demonstrate a replacement for 
the Elbowoods school and the dormitories is owed to this tribe.
    No. 4, Social Security disparity. The difference between 
what our seniors who are on the reservation and who are 
enrolled members off the reservation receive in Social Security 
payments versus what others receive in Social Security payments 
is unfair and cannot be justified and must be fixed.
    [Applause.]
    Senator Conrad. No. 5, as you know as part of the JTAC 
Legislation there was the return of certain lands that were 
taken in excess of the needs of the Corps of Engineers. Those 
lands--those that were taken by the Corps of Engineers and held 
by the Corps of Engineers that are in excess of their needs 
were supposed to have been returned. That remains part of the 
unfinished agenda. Those excess lands should be returned.
    [Applause.]
    Senator Conrad. So today I say to you I believe the record 
has been made on each of those issues in this hearing, and we 
will take that--the result of this hearing to the U.S. Congress 
and seek our very best to get results in all of that unfinished 
agenda. Thank you very much.
    [Applause.]
    Mr. Hall. Thank you.
    [Whereupon, at 12:04 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]


=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


 Prepared Statement of Cora Jones, Director, Great Plains Region, BIA, 
                       Department of the Interior

    Mr. Chairman, I am pleased to be here to discuss the Three 
Affiliated Tribes Economic Recovery Fund provisions of Title XXXV of 
Public Law 102-575, the ``Three Affiliated Tribes and Standing Rock 
Sioux Tribe Equitable Compensation Act'', an act to ensure that the 
Three Affiliated Tribes of Fort Berthold and the Standing Rock Sioux 
Tribe, were adequately compensated for the taking of Indian lands for 
the site, of the Garrison Dam and reservoir, and the Oahe Dam and 
Reservoir, and for other purposes.
    The act established the Three Affiliated Tribes Economic Recovery 
Fund in the United States Treasury. Sources for this fund are derived 
from the revenues generated in the Eastern Division of the Pick-Sloan 
Missouri River Basin Project and Congressional appropriations with a 
maximum limit of $149,200,000. Since only the interest from this fund 
is available for payments to the Tribes by the Secretary, the Act 
requires interest to be deposited into a separate account. The act also 
limits the use of these payments by the Three Affiliated Tribes for 
educational, social welfare, economic development, and other programs, 
subject to the approval of the Secretary. The approval authority was 
delegated to the Bureau of Indian Affairs Regional Director for the 
Great Plains Region.
    Until January of this year, the Three Affiliated Tribes submitted 
their individual requests for funds to the Regional Director, through 
the Fort Berthold Agency Superintendent. These requests were reviewed 
for compliance with the act, approved as appropriate, and coordinated 
with the Office of Trust Funds Management (OTFM) for funds 
distribution.
    On January 12, 2001, a general plan was approved by the Regional 
Director entitled the ``Three Affiliated Tribes Economic Recovery Fund 
Proposal'' (Plan). The Plan outlines the tribes' proposed uses for the 
interest fund. The Plan has been shared with the OTFM. Upon BIA's 
authorization of each funding request that is in compliance with the 
Plan, the request will be promptly forwarded to OTFM for processing. 
Funding requests outside of the Plan will require modification(s) and/
or amendment (s) to the Plan and will need to be submitted by the tribe 
to the Regional Director for approval prior to the BIA forwarding the 
funding request and modified and/or amended Plan to OTFM for 
processing.
    The approved Plan was established in consultation with the tribes.
    This concludes my prepared statement. I will be happy to answer any 
questions the committee may have.
                                 ______
                                 

                 Prepared Statement of Frederick Baker

    Thank you for the opportunity to present some thoughts regarding 
the present state of health care and some recommendations for needed 
changes in our present system of health care delivery.
    I am retired after 27 years of Federal service, including 23 years 
with the Indian Health Service, 17 years of which I served as a service 
unit director. The last 9 years of my Federal career where spent here 
at Fort Berthold where I served as Service Unit Director of The Fort 
Berthold Service Unit of the Indian Health Service.
    Prior to our contacts with the White Man, we were able to take care 
of our health needs. In terms of the rest of the world, we had remedies 
for injuries and illnesses that were in many cases superior to those 
available to our European counterparts. We learned to use what nature/
Mother Earth provided for us, to treat illnesses and injuries of all 
types. Our life style allowed us to be healthy because we had to be in 
great physical condition, and the foods that we ate were healthy. Our 
culture was such that we lived in harmony with our surroundings so that 
mental health problems were virtually non-existent.
    In 1781, we contracted the European disease of smallpox. This 
disease was totally unknown to us therefore we had no defense and no 
cure. We literally lost thousands of people. It is reported that the 
Mandans, for example, were reduced from 13 villages composed of a few 
thousand in each village to only 2 villages. They eventually joined the 
Hidatsa in the area commonly known as the Knife River Villages near the 
present town of Stanton, ND. The two tribes composed of 2 Mandan and 3 
Hidatsa villages and numbering about 20,000 (larger than St. Louis, MO 
at the time) were at Knife River when the Lewis and Clark expedition 
visited them.
    In 1837, the second major epidemic of smallpox hit the ``five'' 
villages. The estimates are that only 20 percent of the Mandans, and 30 
percent of the Hidatsas survived the epidemic. Among the casualties was 
the famous Mandan Chief, Four Bears. We also lost many of our 
``medicine people, our medicine bundles, and our way of life. The 
orderly transition and preservation of culture, history, healing, 
leadership, et cetera from one generation to another was lost.
    Besides the effects of diseases such as, smallpox, we lost our 
strength as tribes, and hence became more vulnerable to our enemies. 
Further, the encroachment of the White People's western migration, the 
increase in the numbers of other tribes that were ``pushed'' into our 
traditional hunting territories, and the slaughter of the buffalo by 
the buffalo hunters changed our lifestyle. However, through our 
resilience and adaptability, we survived and changed, and kept our 
culture alive.
    We were forced into the confines of the Fort Berthold Reservation 
beginning in 1865. Despite the many problems that this created, we 
continued to raise gardens, and became livestock owners and farmers, 
settling in homogeneous communities known as Independence, Nishu, Red 
Butte, Lucky Mound, Shell Creek, et cetera.
    In the agency town of Elbowoods, we had a hospital, which met the 
health needs of our people at the time. Many of us were born there, 
including myself. Many of us went there to get cured from things like 
ear infections, pneumonia, injuries, and had surgery for things like 
appendixes, tonsils, and other basic surgeries. Our biggest disease 
problem in those days was tuberculosis. Many families took care of 
children of relatives who were sent to the various sanitariums for TB. 
This was the days before antibiotics.
    The Garrison Dam came along in the 40's and changed our lifestyle 
again. The ``River'' that was such a part of our lifes and provided us 
with shelter, fertile ground for our gardens, and pastures for our 
livestock, not to mention a lifestyle and culture that stood for a 
fierce independence, and self reliance was over. The communities that 
we so successfully built since we were forced on the reservation, and 
the strategies that we developed to solve our own problems, and rely on 
each other was ended. Our neighborhoods were literally uprooted and 
dissolved, The result was chaos, despair, and the introduction of 
hopeless poverty. Alcohol became rampant as an attempt at curing the 
hoplessness, and despair that many people felt. Lifestyles for many 
changed from activity to sedentary, and diets became a diet of 
``grease'' and ``starch''.
    As a result of these things, and their impact on us as a People, we 
now are among the world leaders in diabetes and its complications; 
alcoholism and its effects on people and families; heart disease; 
injuries; cancer; and mental health problems.
    We don't have a hospital anymore, it was lost as a result of the 
Garrison Dam. It was replaced by an outpatient clinic in Four Bears and 
satellite clinics at White Shield, Mandaree, and Twin Buttes. The 
clinic space is inadequate to meet the many needs of our reservation. 
We have no full-time dentist.
    We have a vision for a new clinic that can provide needed services 
of not only our people but our neighbors on and near the reservation. 
We see a building that can be adequately built to accommodate such 
needed services as 24-hour emergency care; ambulatory care surgery; 
preventive services such as health education and exercise facilities; 
overnight patient observation capability; specialty clinic space, 
adequate clinic space.
    Although JTAC was funded, it was not sufficient to meet the needs 
that resulted from the terrible losses of infrastructure of the 
Garrison Dam. We need additional funding for a new adequate sized 
clinic. We are making progress toward being self-sufficient, however, 
there are some vitally needed things that we need help with and that 
will ultimately help us to become self-sufficient. We need help in 
getting and maintaining good health, and a new clinic is a large step 
in realizing this goal.
                                 ______
                                 

  Prepared Statement of Tony Mandan, Tribal Elder and Member, Mandan, 
                      Hidatsa, and Arikara Tribes

    Good Morning. My name is Tony Mandan; I'm a member of the Three 
Affiliated Tribes. I want to talk today about the unkept promises of 
the Government and why we are asking for this JTAC II money. On 
September 17, 1851, 150 years ago, my great grandfather Red Buffalo Cow 
signed the Fort Laramie Treaty for the Mandans. We were promised things 
in that Treaty, just as we were promised things when the Government 
flooded our homelands for this Garrison Diversion Project. The Garrison 
Diversion Project is not just a project to me; it's my homelands. It's 
where my ancestors lived and are buried. I'll talk about a few of the 
things we were promised when our homelands were flooded.
    The tribal business council was forced to sell our land. They 
didn't want to sell but the Government came in and condemned the land 
and forced us to sell. Our land was prime bottom land. We could farm 
the land. We had coal and wood to heat and cook with. We had wild 
berries, fruit and wild turnips to pick and use for food. We also had 
alfalfa and sweet clover for our animals to feed on in the wintertime. 
It was so rich we needed only one-half ton to feed our animals compared 
to 2 tons of feed today. The river would flood and cover the lands and 
that was a way to enrich the land and a form of irrigation.
    We never wanted to sell our lands and move. The Army Corps of 
Engineers forced us to move. What value do you put on your mother? How 
can you sell your mother? They could never pay us enough for the land. 
Our forefathers are buried there; their bones are still there. They 
were never recovered.
    We lost more than our homes. We lost schools. We had schools and a 
dorm for students to stay while they went to school. We lost 
everything. How can you repay us for that?
    We had schools and dorms for the high school kids to live in while 
they went to school. High school students stayed there. They came from 
the districts. We had eight districts then: Elbowoods, Nishu, Red 
Butte, Independence, Lucky Mound, Beaver Creek, Charging Eagle, and 
Shell Creek.
    We got along well with each other in the day schools and high 
school. All the different districts got along with each other. We were 
one tribe so to speak, even though we were three tribes. We all got 
along as one. We lost that. Today, we're not so competitive together as 
we were then. Even in our basketball and football games we never lost a 
game. The schools represented our people well. Today, we play against 
each other. We need to all come together again and we can be champions.
    We had a hospital and we lost that when we were flooded. Now we 
have a Health Center and a doctor, but they still send us to Minot and 
other towns for our health care. That's a long ways away when you're 
sick. We need an Emergency Health Care Center (critical care center), 
even if its one bed. Now we have nothing. We have no emergency 
equipment or ambulance or anything. We're not considered an emergency 
health center. Doctors could save lives, they could stabilize those 
that need emergency care and then send them on to other facilities. We 
need a first class health center. My wife is diabetic and I have to 
drive her to Minot twice a week. We shouldn't have to do that. It's to 
late for us senior citizens but we need this for our children so they 
can get a good start in life. We need additional dollars to improve on 
our health. We need a health care facility to replace the hospital we 
lost because of the flooding. If we had a helicopter to bring injured 
people here it would help. The way it is now, they have to drive miles 
to a health center and many times IHS won't pay the medical bills 
because they never went to the IHS clinic first. Your credit is ruined. 
So a lot of people don't go to a doctor till their real bad sick.
    We're supposed to get free electricity from the dam. I haven't 
gotten it yet. I'm not aware of anyone getting free electricity yet. 
The electric companies get free electricity. I don't know how much they 
get. I'm still paying the get amount I have for years. Nothing has 
changed now.
    Pesticides were put on the land and drained into the lake. They 
contaminated the fish and made the water unfit for drinking. It has 
minerals in it. The water west of here has sulfer in it that causes 
diarrhea--it's dirty and brown. The oil wells cause problems in the 
water. We need the MR&I project. We have to haul water from New Town, 
ND. We need water for the outlying district, Before this lake was 
created the water was moving and it cleansed itself. That's changed 
now.
    There is no way, we could be paid for the land because of value we 
put on our homelands. We didn't want to sell. A lot of the elders died 
from loneliness and homesickness. Families and friends were torn apart. 
We couldn't see each other anymore and visit like we used to. It's to 
late for us senior citizens. Many of us have diabetes, but we need to 
think of our children. We were all sent to different towns and that was 
really a hardship. We had no social security or even welfare was hard 
to get. So we really need this money.
    Through the years, you made many treaties and promises to us. You 
took our land away. You were the people who put a value on the land. We 
didn't. We were forced to sell and to move because you said civilized 
people needed land for roads and such. You never considered that we are 
all one family. Like the fish, you contaminated them with pesticides. 
You killed them. Our people are like that. A lot of them can't make it 
on top. We get maybe one good crop and then nothing. Everything was 
natural and you forced us to move. The first JTAC didn't address 
everything, so that's why we need this JTAC II to compensate us for our 
schools, hospital and all the other problems that flooding us out has 
caused.
    Those are my comments. That's all I have to say.
                                 ______
                                 

                 Prepared Statement of Elise Packineau

    Senator Conrad:
    As an enrolled member I am very concerned as the spending of the 
JTAC funds. Please accept this statement for the record and testimony 
relating to the Three Affiliated Tribes Recovery Fund. I understand 
that the recovery funds were to enhance and supplement the various 
programs and needs that address health, education, social, and economic 
development.
    I thought it was wonderful that the Tribal Business Council in 1998 
or thereof, were involving the general population and their input with 
the JTAC budget. However, shortly after the people of the Fort Berthold 
were informed that the budget that had been so carefully thought out 
and planned by the people would be dissolved. Early in 2000 the Tribal 
Business Council stated they would then implement their own plan and 
budget.
    Since this time I have been disheartened regarding numerous 
decisions that the council has made. One of which to invest 25 percent 
or 50 percent of $30 million via a referendum vote. Sufficient time and 
notification was not given to the general public. No explanation or 
assistance offered to the elderly. We were not even given the 
opportunity to decide ``yes'' or ``no'' if the JTAC funds should be 
invested or not. To this day we have no idea what investment venture 
was taken.
    The purchase of a ranch that has no return investment since the 
purchase, no report of any returns has been made public.
    Each year a budget is approved for various buildings on the Fort 
Berthold Reservation, one of which a commitment was made for a new 
Commodity Warehouse. Funds were set aside in the budget. It is now 
going on 2 years and there still is not a warehouse. Where was the 
money spent that was budgeted for this warehouse?
    Numerous travel expenses by the Tribal Business Council, no trip 
reports or documentation made available to the enrolled members or 
results of trips. Often times when inquiring about the whereabouts of 
the council, very limited information is given.
    Due to the closure of the Kidney Dialysis Unit, patients' request 
for travel, mileage and per them were constantly scrutinized. On 
several occasions the patients were only given $5.00 per meal for lunch 
and dinner, and told that the hotel would provide continental 
breakfast. Continental breakfast consists of sugar pastries, not a 
recommended diet for a diabetic, especially on dialysis. Many of the 
patients are elderly and only the elderly who were 60 and over were 
allowed assistance who requested overnight lodging.
    My last concern is in regards to the Mandan Hidatsa Arikara Elders 
Organization. This organization was allocated $1 million, of that only 
$650 actually goes to the elderly in a 1-year span, this is totally 
inadequate given the nature of their health situation. Other services 
include, dentures, glasses, safety equipment. The remainder is spent on 
overhead cost. $300,000 was taken from the Elders Organization budget 
without the approval or proper documentation from the MHA Board of 
Directors, the money was to go toward the purchase of two modular homes 
for each district, 6 districts, 12 homes total. To date the modular 
homes are still sitting on the site where they were made.
    Thank you for the opportunity to voice my concerns regarding the 
expenditures of the JTAC funds. I have many other issues, however, for 
the sake of time I will conclude here. Please contact me if you need 
documentation, proof and verification of the statements that I have 
made regarding JTAC funds.
                                 ______
                                 

   Prepared Statement of Bernadine Young Bird, Administrator, Three 
                 Affiliated Tribes Education Department

    Dosha. Good Day, Senator Conrad. My name is Bernadine Young Bird. 
My Hidatsa name is Sacred Tree (Cedar) Woman. I am the Administrator of 
the Three Affiliated Tribes Education Department. I am also the 
Director of the Special Education Office, I am an enrolled member of 
the Mandan, Hidatsa, and Atikara Nation. I have been a teacher, special 
education teacher, and education administrator for 23 years. I am a 
parent of three sons. Two of my sons Robert and Duane have served 
honorably in the Marines and are now working and going to the Fort 
Berthold Community College. My youngest son, Justin, has just turned 13 
and is attending New Town Middle School. I am also a doting grandparent 
of three wonderful grandsons. I am, also, an active and supportive 
community member.
    I am providing written testimony today to share with you and your 
committee about the educational needs that I have observed and 
experienced through my work and my personal life in the educational 
system of the Fort Berthold Reservation.
    First, the life we live today on the Fort Berthold Indian 
Reservation is a much different than in the early fifties. The 
geography of the area of the Elbowoods; era helped define much of what 
the social and economic life would be in the Pre-Garrison Dam period. 
The community was more cohesive and insulated. Today, there are six 
distinct communities in six different geographical areas of the 
reservation. The Garrison Dam destroyed the independent and thriving 
tribal way of life by the, flooding of the heart of the reservation 
that was Elbowoods. It left a terrible open wound and left in its wake 
a separated land base and a traumatized people. This dramatic impact 
can never be measured in full but it clearly traumatized our people so 
deeply that recovery and Adjustment is still going on today.
    The Garrison Dam project greatly impacted and has changed our 
reservation and our people forever. The needs today, as a result, are 
very different from the Elbowoods days. In education, for instance, 
Elbowoods functioned well with the one community school and dormitory. 
Today, education includes early childhood (Head Start, Early Start, 
Healthy Start and Child/Day Care Needs) to adult (GED, Community 
Education, Voctech Training, College) to better meet the changing 
modern and complex society and culture of today. Fort Berthold has 6 
Head Starts to serve 163 children. However, there are an additional 500 
plus children birth to 5 that have early childhood and childcare needs. 
The early childhood needs include the need to build quality state-of-
the-art facilities to better meet the needs for positive and quality 
early childhood experiences. We have five K-12 schools serving the six 
communities, The school facilities on Fort Berthold are in critical 
need of replacement and expansion for the growing needs and increasing 
population. One common need of Early Childhood and our schools is the 
need for replacement facilities.
    The Fort Berthold Community College has the first two phases 
completed for its facility needs. The classrooms, library, and other 
space needs have recently been built. However, additional space needs 
for offices, gym, day care, single, married, housing, and more are 
already being identified.

Early Childhood

    Head Start-six ``state-of-the-art'' Early Childhood Centers-Day 
Care/Early Childhood Centers-eight centers 3 for New Town, 1 for each 
of the other 5 communities. These centers will be open to workers, 
students and the public.

K-12 Schools

    Mandaree, White Shield and Twin Buttes are in dire need of 
replacements for their facilities. They have outlived their lifespan 
from the 1950's. These Public Law 100-297 Tribal Grant Schools are 
Bureau of Indian Affairs funded and have submitted requests through the 
BIA process but without success. The Fort Berthold Indian School Boards 
Association is submitting more detailed testimony regarding their 
status. I support their request and testimony to replace and strengthen 
the current schools with new facilities and added resources for 
supplementing needed services for students.

Fort Berthold Community College

    The Fort Berthold Community College is continuing in the effort to 
enhance and expand their facilities and student services to better meet 
the needs of the adult population. The college continues to need 
resources for the day-to-day services and management, The staff and 
board have an ongoing effort to access the needed resources for 
improvement and expansion. Increased funding to tribal colleges is 
still a critical need.
    The priorities for Education on Fort Berthold, therefore, are for 
facilities that will be adequate to serve the many needs, such as 
counseling, social, and cultural, of all students.
    If the Three Affiliated Tribes, the Mandan, Hidatsa, and Arikara, 
are to survive it will be through a viable, effective, and appropriate 
education system. Besides the critical need for adequate and safe 
facilities, the tribal education system will need to continue its work 
to ensure that every citizen has an opportunity for a world-class 
education. Equally important will be our efforts to integrate the 
native languages and culture into all levels of education. Finally the 
education system will carry on the importance of civic responsibilities 
to our Nation for the perpetuation of the ideals and values we hold 
dearly.
    Mahsahgidahds. Thank you for this opportunity to submit my 
testimony.

              Prepared Statement of Phyllis Old Dog Cross

    Senator Conrad: This is my written testimony as part of the field 
hearing held by the Committee on Indian Affairs by Senator Conrad on 
funding authorized by the Three Affiliated Tribes and Standing Rock 
Sioux Equitable Compensation Act( Title 35 of Public Law 102-575) often 
called JTAC.
    I am glad you held this hearing because I am concerned about the 
expenditures of the money without involving the people in the 
decisionmaking. Large amounts of money have been obligated to the 
Figure Four Ranch, the Twin Buttes Manufacturing Company and to 
expansion of the Casino. I am concerned that funds are not allocated 
for health care, children and education. When community hearings were 
held regarding the JTAC funds the top priority for all was health.
    We have found that the people have no voice and no power with our 
current Constitution. Until that is faced and corrected, we will 
continue to have problems. At present, planning and sound fiscal 
management are absent. There have been no audits conducted, there is no 
personnel system, and certainly over all management has no 
accountability which results in chaos.

Tribal Business Council

    My testimony is that I am concerned about the Tribal Business 
Council spending large sums of JTAC funds on projects such as the 
Figure 4 Ranch and the Twin Buttes Housing. This was one of the first 
actions when Chairman Hall took office. There was no appraisal 
available. Neither were a plan or audit presented. When this amount of 
funds are committed with peoples' funds, a referendum should be used. 
Our Regional Director acting for the Secretary was responsible to 
question the action before signing off on the transaction. She is our 
Trustee.
    JTAC funds are described as moneys that belong to the people, yet 
the draw down of these funds and expenditures are handled entirely by 
the Tribal Council and some Consultants behind closed doors. Under 
Chairman Mason's administration, a people's committee was authorized by 
Resolution to develop a People's Plan to set priorities, schedules, and 
services to meet the needs of the people. The plan was completed and 
submitted to Tex Hall and the Tribal Council. It was rejected. The 
Committee was dissolved. An outside Consultant was employed by the 
Council. He wrote the plan which was submitted to the Department of the 
Interior. The people have never seen it.
    We strongly recommend that the people be involved in the total 
planning process, as well as approving expenditures and seeing audits.

Lack of Management

    My Testimony is that I am concerned by the lack of management that 
is observed in Tribal Government organization and practice. There is a 
need for plain old fashioned rules for accomplishing goals. The Council 
itself is not organized enough to accomplish much of anything. There is 
no delegation of authority or delegation of work in order to have a 
well functioning organization. The council uses committees but there 
are no committee reports or recommendations. The minutes are usually 
very slow in being approved, sometimes months late. Records and 
Archives are not safe, and minutes and resolutions are misplaced.
    The agenda and council meeting are filled and choked with minutiae. 
Each item is discussed, even it is paying someone's motel bill to 
whether a sun dance is a religious ceremony. All, that is ALL, of the 
personnel issues are handled by the Council. Some issues are discussed 
as long as 4 hours, then tabled. Very important issues and decisions 
can be made in a few minutes. The methods of voting are chaotic with 
abstentions, not voting or leaving the room during a vote. It has been 
recommended many times to have roll call voting so that constituents 
can know how their representative votes. Council meetings can last ALL 
night. This practice is hard on Elders, sick persons, and people who 
drive 200 miles to attend.
    The employees are delegated little authority, can be fired by only 
the council and are not accountable. The money wasted and equipment 
wasted counts up. It is the Tribes most desirable welfare system 
available. Change in our Constitution is needed.

Ethics

    It is my testimony that our tribal government, elected leaders and 
tribal employees could benefit from the injection of some ethics into 
the entire management system of tribal government. It seems a shame 
that one must reach a point where ethics must be observed in a written 
directive. But we seem to have lost the way to respect ourselves and 
others. The elders have always been charged with showing the good way 
but even that task is ignored. As a result we have become a miserable 
bitter and unhappy group. Our lack of ethical practice has contributed 
to poor management, disrespect, and an illness of the soul.
    In order to accomplish a return of ethics, it will have to be part 
of the revision of the Constitution. Our Constitution is silent about 
ethics and leaves the responsibility to the elected officials 
themselves to be a part of ethics. The Constitution must be revised. It 
no longer is powerful enough to handle the officials and others. In 
1935, we had strong leaders and clans, but now they are weak.
    Some of our elected officials and members have seen that ethics 
must be adapted and made to be an inherent part of governing. We need 
to face the whole issue of corruption. We need to make sure the strong 
ones do not exploit the weak. We need a court system that is fair. We 
need a press that is free and can report the truth.To get that we must 
distribute the power of the Tribal Government, to set limits and define 
limits. The Constitution is the vehicle of the people to deal with 
elected officials.

Health Care

    This is my testimony regarding the need for health care by the 
Three Tribes. We had a hospital in Elbowoods, it wasn't fancy but it 
fit the times. We had a doctor and nurses and other needed services. It 
was built in 1936 and closed in 1948 pending the flood. It was at that 
time, that responsibility for health care for Indian people was 
transferred from BIA to the United States Public Health Service, under 
DHEW. It is ironic that health service was still the responsibility of 
a quasi-military organization with the staff in uniforms and with rank. 
We cannot get away from the military. By then Dr. Herbert Wilson 
reported in to Fort Berthold at Elbowoods and began a BIA clinic. The 
BIG Move was made about 1952 and the Agency was located in New Town. 
The DHEW--IHS began to provide health service through contract care. No 
hospital was built to replace the old one. A day clinic was built in 
1962. It provided only minimal services. Small clinics were located in 
out lying areas.
    From the beginning there never seemed to be enough staff to meet 
the demand. The population increased, health problems grew. As with the 
general population, cost of health care spiraled up and up. The 
statistics of morbidity and other health issues showed that the 
population of the Three Tribes had some problems that are the worst in 
the Nation. The problems of LIFESTYLE are overwhelming. Depression 
since the move is epidemic, diabetes is affecting all, cancer is 
increasing. The addiction to alcohol and other drugs as well as tobacco 
is growing. Gross malignant obesity is the norm. Suicide is a major 
problem.
    The people have let the council know that health care is the No. 1 
need. An extensive study was completed about 4 years ago. But the plans 
for health care are pushed back in favor of Casinos and Ranches. We 
need health care that is free of politics. We need a Health Authority 
that can determine needs that cannot be sabotaged by the Council. We 
need emergency health care of high quality including ambulance service, 
we need after hours clinic care. We need a detox center. Elders need 
medical cards or insurance and we need a larger facility to provide 
health services in eluding mental health care. But this is not possible 
until we can develop a Constitution that gives power to the people.

Constitution

    It is my testimony, that before anything can be accomplished as far 
as JTAC is concerned the Three Tribes NEED a new Constitution. The one 
in 1935, was adequate for the times, but it is missing a lot. It gave 
the people the power to have a democratic say in dealing with their 
government but it didn't provide the people with weapons. It gave 
absolute power to the Council with no recourse. In essence the Council 
can do just as it pleases with sanction from the Secretary. The Council 
has the power to interpret the Constitution, and can change their minds 
to meet their needs. It controls the judge, it controls law and order 
and can affect the out come of lawsuits. The Regional Director 
(Secretary) is influenced by the Council and is easily swayed by their 
demands. A good example is the fiasco of leases last year. The person 
who suffered is the land owner who received no check from their lease. 
The Council controls every job on the reservation. Even the most lowly 
of jobs doesn't escape their scrutiny. The people have joined in with 
their council to gather as much of the spoils that they can.
    Just as with management issues, Councilmen rarely have any 
experience or knowledge in management of workers, systems or budgets. 
Their ability to insure accountability is weak. They have had no 
experience with Constitutional Government, managing a board or 
business, Personnel systems are non existent.
    If we do not do something about our Constitution as well as 
management, our system will crumble. Now we are dealing with millions. 
These millions belong to the people not the council.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.001
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.002
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.003
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.004
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.005
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.006
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.007
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.008
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.009
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.010
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.011
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.012
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.013
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.014
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.015
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.016
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.017
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.018
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.019
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.020
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.021
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.022
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.023
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.024
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.025
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.026
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.027
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.028
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.029
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.030
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.031
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.032
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.033
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.034
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.035
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.036
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.037
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.038
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.039
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.040
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.041
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.042
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.043
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.044
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.045
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.046
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.047
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.048
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.049
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.050
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.051
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.052
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.053
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.054
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.055
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.056
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.057
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.058
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.059
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.060
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.061
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.062
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.063
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.064
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.065
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.066
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.067
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.068
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.069
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.070
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.071
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.072
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.073
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.074
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.075
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.076
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.077
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.078
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.079
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.080
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.081
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.082
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.083
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.084
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.085
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.086
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.087
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.088
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.089
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.090
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.091
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.092
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.093
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.094
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.095
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.096
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.097
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.098
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.099
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.100
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.101
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.102
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.103
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.104
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.105
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.106
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.107
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.108
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.109
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.110
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.111
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.112
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.113
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.114
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.115
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.116
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.117
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.118
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.119
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.120
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.121
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.122
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.123
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.124
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.125
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.126
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.127
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.128
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.129
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.130
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.131
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.132
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.133
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.134
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.135
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.136
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.137
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.138
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.139
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.140
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.141
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.142
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.143
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.144
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.145
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.146
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.147
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.148
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.149
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.150
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.151
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.152
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.153
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.154
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.155
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.156
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.157
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.158
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.159
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.160
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.161
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.162
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.163
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.164
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.165
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.166
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.167
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.168
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.169
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.170
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.171
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.172
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.173
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.174
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.175
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.176
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.177
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.178
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.179
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.180
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.181
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.182
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.183
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.184
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.185
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.186
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.187
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.188
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.189
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.190
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.191
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.192
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.193
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.194
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.195
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.196
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.197
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.198
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.199
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.200
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.201
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.202
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.203
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.204
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.205
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.206
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.207
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.208
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.209
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.210
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.211
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.212
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.213
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.214
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.215
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.216
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.217
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.218
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.219
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.220
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.221
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.222
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.223
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.224
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.225
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.226
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.227
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.228
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.229
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.230
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.231
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.232
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.233
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.234
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.235
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.236
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.237
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.238
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.239
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.240
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.241
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.242
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.243
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.244
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.245
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.246
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.247
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.248
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.249
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.250
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.251
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.252
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.253
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.254
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.255
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.256
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.257
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.258
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.259
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.260
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.261
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.262
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.263
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.264
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.265
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.266
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.267
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.268
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.269
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.270
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.271
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.272
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.273
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.274
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.275
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.276
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.277
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.278
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.279
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.280
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.281
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.282
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.283
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.284
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.285
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.286
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.287
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.288
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.289
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.290
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.291
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.292
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.293
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.294
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.295
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.296
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.297
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.298
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.299
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.300
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.301
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.302
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.303
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.304
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.305
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.306
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.307
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.308
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.309
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.310
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.311
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.312
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.313
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.314
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.315
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.316
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.317
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.318
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.319
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.320
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.321
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.322
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.323
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.324
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.325
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.326
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.327
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.328
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.329
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.330
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.331
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.332
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.333
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.334
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.335
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.336
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.337
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.338
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.339
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.340
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.341
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.342
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.343
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.344
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.345
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.346
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.347
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.348
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.349
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.350
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.351
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.352
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.353
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.354
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.355
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.356
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.357
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.358
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.359
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.360
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.361
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.362
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.363
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.364
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.365
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.366
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.367
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.368
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.369
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.370
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.371
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.372
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.373
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.374
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.375
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.376
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.377
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.378
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.379
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.380
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.381
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.382
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.383
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.384
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.385
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.386
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.387
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.388
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.389
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.390
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.391
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.392
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.393
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.394
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.395
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.396
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.397
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.398
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.399
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.400
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.401
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.402
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.403
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.404
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.405
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.406
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.407
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.408
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.409
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.410
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.411
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.412
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.413
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.414
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.415
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.416
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.417
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.418
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.419
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.420
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.421
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.422
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.423
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.424
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.425
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.426
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.427
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.428
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.429
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.430
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.431
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.432
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.433
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.434
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.435
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.436
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.437
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.438
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.439
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.440
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.441
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.442
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.443
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.444
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.445
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.446
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.447
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.448
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.449
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.450
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.451
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.452
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.453
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.454
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.455
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.456
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.457
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.458
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.459
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.460
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.461
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.462
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.463
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.464
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.465
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.466
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.467
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.468
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.469
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.470
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.471
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.472
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.473
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.474
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.475
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.476
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.477
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.478
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.479
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.480
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.481
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.482
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.483
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.484
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.485
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.486
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.487
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.488
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.489
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.490
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.491
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.492
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.493
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.494
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.495
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.496
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.497
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.498
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.499
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.500
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7528.501
                                 
                               <all>

</pre></body></html>
